<html>
<title> - GROWING AND DIVERSIFYING THE CYBER TALENT PIPELINE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
           GROWING AND DIVERSIFYING THE CYBER TALENT PIPELINE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                           Serial No. 116-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-868 PDF               WASHINGTON : 2019                            
                               
                               

                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           John Ratcliffe, Texas
Lauren Underwood, Illinois           Mark Walker, North Carolina
Elissa Slotkin, Michigan             Van Taylor, Texas
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Wesley Simpson, Chief Operating Officer, International 
  Information System Security Certification Consortium:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Richard ``Rick'' J. Gallot, Jr., President, Grambling State 
  University:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Amelia Estwick, National Cybersecurity Institute, Excelsior 
  College:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Candace Worley, Vice President and Chief Technical 
  Strategist, McAfee:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Statement of Laura Bate, Policy Analyst, New America...........    48

                                Appendix

Questions From Honorable Lauren Underwood for Amelia Estwick.....    55


           GROWING AND DIVERSIFYING THE CYBER TALENT PIPELINE

                              ----------                              


                         Tuesday, May 21, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Cybersecurity, 
                                 Infrastructure Protection,
                                            and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:13 p.m., in 
room 310, Cannon House Office Building, Hon. Cedric L. Richmond 
(Chairman of the subcommittee) presiding.
    Present: Representatives Richmond, Langevin, Rice, Slotkin, 
Katko, Walker, Taylor, and Rogers (ex officio).
    Mr. Richmond. I am going to go ahead and gavel us in so 
that we can give our opening statements, and hopefully, we can 
get through some of the testimony while we are here. But we are 
going to have to break for votes, which will be called anywhere 
probably in the next 15 minutes, and so then we will break, we 
will go vote, and then we will try to rush back as quickly as 
possible to be respectful of your time, because we are 
certainly glad that you are here.
    So I will start off, and then I will turn it over to 
Ranking Member Katko.
    Let me just start by staying good afternoon. I want to 
welcome the panelists to today's hearing on Growing and 
Diversifying the Cyber Talent Pipeline.
    When I became Ranking Member of this subcommittee in 2015, 
researchers were projecting that the shortage of cybersecurity 
professionals would reach 1.5 million by 2020. In 2018, that 
research showed a current day shortage of nearly 3 million 
unfilled positions around the world, and over 300,000 in the 
United States alone.
    That means that nearly one--nearly a third of the U.S. 
cybersecurity work force is, at this point, an empty desk.
    Nevertheless, every day we introduce newer, smarter, more 
connected devices and infrastructure to make our lives easier, 
our businesses more profitable, and countless other goals. 
Every day, we learn new ways these devices can be hacked, 
disrupted, or manipulated to cause everything from minor 
inconveniences to major global havoc.
    We have seen ransomware attacks take out entire branches of 
local government. We have had our personal data, intellectual 
property, and military secrets stolen by high-style foreign 
governments. It has never been more clear, we need more people 
at the table who know cybersecurity.
    We must do more than admire the problem. This subcommittee 
held 3 cyber work force hearings last Congress, and learned 
something in all of them. Now that I have the gavel, I want to 
use it to drive home an important point: Diversity is essential 
for National security and for cybersecurity. We need to bring 
people to the table who have different perspectives, different 
experiences, and different ways of looking at a problem. Right 
now the vast majority of cybersecurity work force is white and 
male. Only 9 percent are African American, 4 percent are 
Hispanic, and 11 percent are women.
    My concern is that having such a homogenous work force 
could lead to blind spots, and potentially intelligence 
failures, particularly for Federal agencies like the Department 
of Homeland Security.
    I know we have some panelists here today that can speak to 
these issues directly, and I look forward to hearing your 
perspectives.
    Despite the good work being done in the public and private 
sector on cyber work force, here is what I know for sure. We 
still are not tapping into diverse talent streams. If we are 
serious about fixing this problem, we need to put our money 
where our mouth is. We have to stop starving the Federal 
programs that support cyber talent, such as the National 
Science Foundation, CyberCorps Scholarship for Service, whose 
budget is on the chopping block every year.
    We also need to stop bleeding talent at the very agencies 
who need cyber experts to carry out their missions, like DHS, 
the FBI, and the National Security Council at the White House. 
Finally, we have to move the conversation around diversity out 
of the background and put it in the front and center. We cannot 
continue to make diversity an afterthought and expect that it 
will spring forth naturally.
    A few weeks ago, the White House issued an Executive Order 
on America's cybersecurity work force. It introduced a 
President's Cup Cyber Competition, and some work force rotation 
opportunities, which are good, but was mostly silent on 
diversity.
    Officials reportedly explained that they hoped diversity 
would be a natural byproduct of the order. That is exactly the 
type of thinking we cannot afford to have if we are serious 
about reversing trends.
    [The statement of Chairman Richmond follows:]
                Statement of Chairman Cedric L. Richmond
                              May 21, 2019
    When I became the Ranking Member of this subcommittee in 2015, 
researchers were projecting that the shortage of cybersecurity 
professionals would reach 1.5 million by 2020. In 2018, that research 
showed a current-day shortage of nearly 3 million unfilled positions 
around the world--and over 300,000 in the United States alone. That 
means that nearly a third of the U.S. cybersecurity workforce is, at 
this point, an empty desk. Nevertheless, every day, we introduce newer, 
smarter, more connected devices and infrastructure to make our lives 
easier, our businesses more profitable, and countless other goals. And, 
every day, we learn new ways these devices can be hacked, disrupted, or 
manipulated to cause everything from minor inconveniences to major 
global havoc.
    We have seen ransomware attacks take out entire branches of local 
government. We have had our personal data, intellectual property, and 
military secrets stolen by hostile foreign governments. It has never 
been more clear: We need more people at the table who know 
cybersecurity. And we must do more than admire the problem. This 
subcommittee held 3 cyber workforce hearings last Congress, and learned 
something in all of them. Now that I have the gavel, I want to use it 
to drive home an important point: Diversity is essential for National 
security, and for cybersecurity. We need to bring people to the table 
who have different perspectives, different experiences, and different 
ways of looking at a problem.
    Right now, the vast majority of the cybersecurity workforce is 
white and male--only 9 percent are African American, 4 percent are 
Hispanic, and 11 percent are women. My concern is that having such a 
homogenous workforce could lead to blind spots and, potentially, 
intelligence failures--particularly for Federal agencies like the 
Department of Homeland Security. I know we have some panelists here 
today that can speak to these issues directly, and I look forward to 
their perspectives. Despite the good work being done in the public and 
private sector on cyber workforce, here's what I know for sure--we 
still are not tapping into diverse talent streams. If we are serious 
about fixing this problem, we need to put our money where our mouth is.
    We have to stop starving the Federal programs that support cyber 
talent, such as the National Science Foundation's Cyber Corps 
Scholarship for Service, who's budget is on the chopping block every 
year. We also need to stop bleeding talent at the very agencies who 
need cyber experts to carry out their missions, like DHS, the FBI, and 
the National Security Council at the White House. And finally, we have 
to move the conversation around diversity out of the background and put 
it front-and-center. We cannot continue to make diversity an 
afterthought and expect that it will spring forth naturally.
    A few weeks ago, the White House issued an Executive Order on 
America's Cybersecurity Workforce. It introduced a President's Cup 
Cyber Competition, and some workforce rotation opportunities--which are 
good--but was mostly silent on diversity. Officials reportedly 
explained that they ``hoped diversity would be a natural byproduct'' of 
the Order. This is exactly the type of thinking we cannot afford to 
have if we are serious about reversing trends. I look forward to 
hearing from our witnesses today about opportunities to address this 
important National security issue.

    Mr. Richmond. I look forward to hearing from our witnesses 
today about opportunities to address this important National 
security issue. With that, I will yield to the Ranking Member, 
Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, for today's hearing on 
the cybersecurity work force.
    As I meet with those involved in cybersecurity, the common 
refrain from Government, academia, and industry, is a need for 
more people. As the Chairman said, there is about 300,000 open 
positions in the cybersecurity field in the United States right 
now.
    How do we fix this? To start, we much begin engaging 
students in primary and secondary school. We can't wait until 
college to introduce cybersecurity as a profession.
    To that, we need more teachers that are cyber aware and 
curriculums that help inspire and encourage kids to engage with 
cybersecurity. For those that want to go to college, we need to 
make sure the programs are building the experience and 
knowledge that employers need. We also need to make sure we 
have professors to do that.
    I am heartened that in my district, Le Moyne College is 
starting up a cybersecurity program this year. But it is--you 
know, we need a lot more than just one school doing that.
    Enabling programs that grant a range of students the 
opportunity to engage in cybersecurity scholarship should be a 
top priority. I recently discussed cybersecurity scholarship 
opportunities offered by the National Science Foundation 
through their CyberCorps program. By offering prospective 
students the opportunities to develop the critical skills in 
exchange for Government service, we ensure that we have highly-
skilled cybersecurity employees in the Government, while 
creating the next generation of cybersecurity experts.
    College is not the only pathway to a career in cyber. We 
need to not only develop and scale programs, but also need to 
increase the awareness of them. We need to provide 
opportunities to reskill those currently in the work force who 
are interested in moving to a career in cyber.
    We must do more in the short term as well. I had the 
opportunity to talk with employees at the Department of 
Homeland Security, Cybersecurity and Infrastructure Security 
Agency yesterday, or CISA, and the common theme among them was 
the challenges in hiring, and then retaining skilled employees 
after they train them up.
    It is critical that we do more now that give CISA the tools 
that they need to more quickly bring on qualified personnel, 
particularly to join the Hunt and Incident Response Team, or 
HIRT, and the National Cybersecurity Assessment and Technical 
Security Lab, or NCATS.
    The men and women in these offices are working around the 
clock to identify and mitigate cyber vulnerabilities in both 
the Government domain, and on behalf of the private sector, and 
they are expanding every day in those efforts.
    Over the past few years, Congress has given CISA 
significant new authorities to harden our cyber defenses, but 
we have to cut the red tape so we can hire faster and keep that 
personnel longer.
    There is no silver bullet to solve the problem, and the 
Federal Government cannot go it alone. It will take time. It 
will take effort. It will take more ideas and collaboration.
    I look forward to working with my colleagues on both sides 
of the aisle to make a dent in the cyber work force shortage.
    Thank you to our witnesses for speaking with us today.
    Mr. Chairman, I yield back the balance of my time.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
                              May 21, 2019
    As I meet with those involved in cybersecurity, the common refrain 
from Government, academia, and industry is the need for more people.
    Despite having the best and the brightest students and 
professionals in the world, the United States still has 300,000 open 
positions in the cybersecurity field.
    How do we fix this? To start, we must begin engaging students in 
primary and secondary school. We cannot wait until college to introduce 
cybersecurity as a career profession.
    To do that, we need more teachers that are cyber aware and 
curriculums that help inspire and encourage kids to engage with 
cybersecurity.
    For those that want to go to college, we need to make sure the 
programs are building the experience and knowledge that employers need. 
We also need to make sure we have professors to do that.
    Enabling programs that grant a range of students the opportunity to 
engage in cybersecurity scholarship should be a top priority. I 
recently discussed cybersecurity scholarship opportunities offered by 
the National Science Foundation through their CyberCorps program. By 
offering prospective students the opportunity to develop the critical 
skills in exchange for Government service, we insure that we have 
highly-skilled cybersecurity employees in the Government while creating 
the next generation of cybersecurity experts.
    College is not the only pathway to a career in cyber. We need to 
not only develop and scale programs, but also increase the awareness of 
them.
    We need to provide opportunities to reskill those currently in the 
workforce who are interested in moving to a career in cyber.
    We must do more in the short term as well. I had the opportunity to 
talk with employees at the DHS Cybersecurity and Infrastructure 
Security Agency yesterday and a common theme was challenges in hiring 
and retaining skilled employees.
    It is critical that we do more now to give CISA the tools to more 
quickly bring on qualified personnel, particularly to join the Hunt and 
Incident Response Team (HIRT) and the National Cybersecurity 
Assessments and Technical Security (NCATS) Lab.
    The men and women in these offices are working around the clock to 
identify and mitigate cyber vulnerabilities in both the .gov domain and 
on behalf of the private sector. Over the past few years, Congress has 
given CISA significant new authorities to harden our cyber defenses but 
we have to cut the red tape so they can hire faster and keep their 
personnel.
    There is no silver bullet to solve the problem. And the Federal 
Government cannot go it alone. It will take time, effort, new ideas and 
collaboration.
    I look forward to working with my colleagues to make a dent in the 
cyber workforce shortage.

    Mr. Richmond. I want to thank the Ranking Member, Mr. Katko 
from New York, for his opening statement and remind Members 
that other Members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    [The statements of Chairman Thompson and Honorable Jackson 
Lee follow:]
                Statement of Chairman Bennie G. Thompson
                              May 21, 2019
    Good afternoon. I want to thank Chairman Richmond for holding 
today's hearing on an issue critical to both our National security and 
our economy: Addressing the cybersecurity workforce shortage.
    Today, North America's cybersecurity workforce is nearly a half-
million people short--globally, the delta is nearly 3 million.
    On a bipartisan basis, this committee has devoted considerable time 
to understanding potential consequences of the cybersecurity workforce 
shortage, its root causes, and how the Federal Government can most 
effectively partner with the private sector to develop cyber talent.
    The White House reported last year that malicious cyber activity 
cost the U.S. economy between $57 billion and $109 billion in 2016. 
Those figures have almost certainly grown since.
    We also know that sophisticated foreign adversaries are constantly 
seeking novel ways to attack our critical infrastructure and steal 
sensitive National security information.
    So, it is clear that failing to grow the cyber talent pipeline 
could have catastrophic consequences.
    As we have worked to better understand the roots or our 
cybersecurity workforce shortage, one thing has become clear: We aren't 
looking for talent in the right places and, as a result, our Federal 
policies are not effectively targeting untapped talent pools.
    (ISC)\2\ and the International Consortium of Minority Cybersecurity 
Professionals conducted a survey last year that revealed African 
Americans make up only 9 percent of the cybersecurity workforce and 
Hispanics comprise only 4 percent.
    Women are similarly underrepresented.
    Over time, we have learned that our workforce shortages stem--in 
part--from misconceptions about the education levels required to work 
in cybersecurity.
    Not all cybersecurity positions require 4-year degrees, and we need 
to do a better job making sure the public understands that.
    At the same time, women and minority groups holding cybersecurity 
jobs tend to have higher education levels but are less likely to hold 
management positions or receive salary increases.
    That brings me to another observation: The cybersecurity field has 
struggled to adapt to the demands of diversity, including being slow to 
create opportunities for training and advancement for diverse 
candidates.
    That is why I am pleased that we have a diverse set of panelists 
with a range of experience here today to help us better understand how 
we can bring more people into the cybersecurity field.
    We need to have a soup-to-nuts conversation about how to attract 
new people from different backgrounds to cybersecurity jobs, and then 
retain them.
    Growing and diversifying the cyber talent pipeline will require the 
Federal Government to improve that way it partners with the private 
sector and the public to achieve three objectives:
  <bullet> First, we must cultivate an interest in cybersecurity 
        careers in diverse communities;
  <bullet> Second, we must connect people with educational and training 
        opportunities;
  <bullet> Finally, we must provide a bridge between training and 
        careers.
    The Federal Government's current workforce initiatives start to 
address some, but not all, of these objectives.
    For example, the Department of Homeland Security and the National 
Science Foundation provide scholarships and stipends to students 
seeking cybersecurity-related degrees, and DHS also works with the 
National Security Agency to support the designation of over 200 
colleges and universities as either National Centers of Academic 
Excellence.
    And NIST developed the NICE National Cybersecurity Workforce 
Framework to match job descriptions with job seekers.
    But I am not certain that any of these well-intentioned initiatives 
successfully attract new people to the field.
    Even the Executive Order on the Cybersecurity Workforce signed 
earlier this month is largely silent on diversity.
    Indeed, the EO could actually create barriers to growing the cyber 
talent pool by implementing ``aptitude assessments'' for agencies to 
use when identifying employees to reskill for cybersecurity.
    To fill gaps in the Federal Government's cybersecurity workforce 
policy, we need to hear from diverse voices like those before us today.
    With that, I thank the witnesses for being here today and look 
forward to our discussion.
    I yield back the balance of my time.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                              May 21, 2019
    Chairman Richmond and Ranking Member Katko, thank you for holding 
today's hearing on ``Growing and Diversifying the Cyber Talent 
Pipeline.''
    This hearing provides Members an opportunity to learn about the 
current shortage of skilled cybersecurity professionals, the lack of 
diversity in the field, and academic initiatives to address workforce 
challenges.
    The Federal Government, including the Department of Homeland 
Security (DHS), can support efforts to grow and diversify the cyber 
talent, and leverage these talent streams to recruit and retain cyber 
experts in civil service.
    I look forward to the testimony of today's witnesses:
  <bullet> Wesley Simpson, chief operating officer, International 
        Information System Security Certification Consortium 
        ((ISC)\2\);
  <bullet> Richard ``Rick'' Gallot, president, Grambling State 
        University;
  <bullet> Dr. Amelia Estwick, National Cybersecurity Institute, 
        Excelsior College; and
  <bullet> Candace Worley, vice president and chief technical 
        strategist, McAfee (Minority witness).
    The cybersecurity field's has an expanding shortage of 
professionals, with over a quarter-million positions remaining unfilled 
in the United States alone and a predicted shortfall of 1.5 million 
cybersecurity professionals by 2019.
    The solution must be to grow a greater pool of cybersecurity 
professionals that are prepared to fill positions within the Federal 
Government.
    The strength of the U.S. cybersecurity workforce is paramount to 
our National security and economic stability, but there are 300,000 
unfilled positions in the United States, and close to 3 million world-
wide.
    Congress must intervene to stop this gap from widening.
    The challenge before the Homeland Security Committee is finding the 
right policy that will accomplish the goal of attracting and retaining 
cybersecurity professionals within the Federal Government.
    I have focused on this problem and have mapped out a comprehensive 
approach to meeting the underlying problem: Increasing the pool of 
people who would receive essential education in science, technology, 
engineering, and mathematics from kindergarten through advanced degree 
programs.
    In 2017, I was pleased to have been awarded the Executive Women's 
Forum's Women in Cybersecurity Leadership Award for my work in 
promoting advances in our cybersecurity policy.
    I participated on a leading cybersecurity panel at the 2018 Aspen 
Institute Cyber Summit in San Francisco.
    The Trump administration's new Executive Order on America's 
Cybersecurity Workforce does not do enough to grow the cybersecurity 
talent pipeline and could unnecessarily exclude qualified candidates by 
relying on aptitude assessments, which tend to yield biased outcomes.
    Committee Democrats will push the White House to fully leverage 
Federal resources to grow and diversify that cybersecurity talent 
pipeline.
    I was pleased to attend the Aspen Institute to discuss the role of 
Government in creating a policy and framework for our Nation which will 
protect Government and civilian computer networks by current and future 
threats, such as quantum computing, advances in artificial 
intelligence, and unknown--but likely and anticipated--threats posed 
from future technological innovations on the horizon.
    The beginning of the Government's ability to protect networks and 
computing technology begins with the talent we can attract to the 
Department of Homeland Security.
    In our pursuit of closing the gap between minority and majority 
participation in cybersecurity, we must also look at promotion and 
retention issues as well.
    The (ISC)\2\ Global Information Security Workforce Study that 
covered the period from June 22 through September 11, 2016, and 
features a deeper dive into the diverse composition of the U.S. 
cybersecurity workforce to encompass not only gender, age, and tenure, 
but ethnicity and race as well.
    Among minority cybersecurity professionals, 23 percent hold a role 
of director or above, 7 percent below the United States average.
    They found that minorities who have advanced into leadership roles 
often hold higher degrees of academic education than their Caucasian 
peers who occupy similar positions; of minorities in cybersecurity, 62 
percent have obtained a master's degree or higher, compared to 50 
percent of professionals who identified as White or Caucasian.
    The 2017 Global Information Security Workforce Study examined both 
conscious and unconscious forms of discrimination in the workplace.
    They considered unfair treatment based on gender, age, ethnicity, 
or an employee's cultural group.
    The survey found discrimination based on ethnicity and gender.
    Thirty-two percent of cybersecurity professionals of color who 
participated in the survey report that they have experienced some form 
of discrimination in the workplace.
    Across all races and ethnicities, women experience greater rates of 
discrimination in the workplace than men, reporting discrimination in 
much greater proportions than men when viewed as a total U.S. 
population.
    Women who identify as Black, Hispanic, Asian, or of Native American 
descent, report the highest numbers of discrimination.
     congresswoman jackson lee's legislative efforts to close the 
                      cybersecurity workforce gap
    I will soon be reintroducing the Cyber Security Education and the 
Workforce Enhancement Act, which seeks to prepare more women and 
minority students and early stage to mid-career professionals within 
the Federal Government for cybersecurity jobs.
    The bill supports:
  <bullet> Recruiting information assurance, cybersecurity, and 
        computer security professionals;
  <bullet> Providing grants, training programs, and other support for 
        kindergarten through grade 12, secondary, and post-secondary 
        computer security education programs;
  <bullet> Supporting guest lecturer programs in which professional 
        computer security experts lecture computer science students at 
        institutions of higher education;
  <bullet> Identifying youth training programs for students to work in 
        part-time or summer positions at Federal agencies; and
  <bullet> Developing programs to support underrepresented minorities 
        in computer security fields with programs at minority-serving 
        institutions, including Historically Black Colleges and 
        Universities, Hispanic-serving institutions, Native American 
        colleges, Asian-American institutions, and rural colleges and 
        universities.
    The goal of the Cyber Security Education and the Workforce 
Enhancement Act is to address underrepresentation of women and 
minorities in cybersecurity fields of employment.
                        cybersecurity statistics
    In 2016, the Bureau of Labor Statistics reported that African-
Americans comprised only 3 percent of the information security analysts 
in the United States, yet comprise nearly 13 percent of the National 
population.
    Just 2 years ago a security analyst, a position which required a 4-
year degree, was paid on average $88,890 per year.
    The top computing security salaries range from $175,000 to $230,00 
per year.
    The most senior position was chief information security officers 
(CISOs), which typically earns $400,000 or more per year.
    In 2017 the United States employed nearly 780,000 people in 
cybersecurity positions, with approximately 350,000 current 
cybersecurity employment vacancies.
    In 2017, nearly 65 percent of large U.S. companies have a chief 
information security officer, up from 50 percent in 2016.
    Women hold only 11 percent of cybersecurity positions globally, 
while filling 25 percent of tech jobs, and comprising 50 percent of the 
population.
    During this time of the year, I speak at commencement exercises and 
given these statistics my message to young people is to look to the 
cybersecurity field for career and employment opportunities.
    There is a similar situation with African Americans which comprise 
only 7 percent of the cybersecurity workforce, and Hispanics, who 
account for 5 percent of cybersecurity positions although they make up 
13 percent of the Nation's population.
    Finally, 2 out of 3 high school students indicate that no one has 
ever spoken to them about a career in cybersecurity.
    These facts mean that we should not have any shortages for 
computing security jobs, but that these vacancies exist because of 
barriers to entry like education.
       solution for expanding the federal cybersecurity workforce
    The solution is expanding the diversity of those who are 
cybersecurity professionals by tapping human capital already within the 
Federal Government in new hires or mid-career changes, when we identify 
that someone has the aptitude and desire to become a computing security 
professional.
             african american pioneers in computer science
    Katherine G. Johnson, of Hidden Figures fame, graduated from 
college at age 18. In 1952, she began working at NASA in its 
aeronautics area as a ``computer,'' where she performed the 
calculations that assured that when astronauts were sent into orbit 
they could be safely returned to earth.
    Roy Clay Sr. is known as the Godfather of Silicon Valley. Mr. Clay 
was at the cutting edge of computing and technology through his 
leadership of HP's first foray into the computer market with its 2116A 
computer.
    He was inducted into Silicon Valley Engineering Council's Hall of 
Fame in 2003.
    Mark Dean co-created the IBM personal computer and was instrumental 
in the development of the company's PC 5150, which was sold to the 
public in 1981.
    Mr. Dean also contributed to the development of the color PC 
monitor, the first gigahertz chip, and the industry standard 
architecture (ISA) system bus.
    The personal computers' impact on our world is unmistakable.
    In the early days of the computing technology age, computers were 
only available to governments and large institutional organizations 
because of their size and complexity.
    The age of personal computing has paved the way for mobile 
computing and handheld computing devices like smart phones.
                   women and the history of computing
    Augusta Ada King-Noel, Countess of Lovelace was an English 
mathematician and writer, chiefly known for her work on Charles 
Babbage's proposed mechanical general-purpose computer.
    She was the first to recognize that the machine had applications 
beyond pure calculation, and created the first computer program to give 
Babbage's machine instructions to carry out a task.
    As a result, she is often regarded as the first to recognize the 
full potential of a ``computing machine,'' and the first computer 
programmer.
    Grace Hopper was an American computer scientist and United States 
Navy rear admiral, who became the first programmer of the Harvard Mark 
I computer and she invented the first compiler for a computer 
programming language.
    The Executive Women's Forum (EWF) recognizes the contributions 
women have made and seeks to expand opportunities for women.
    The Executive Women's Forum was founded in 2002, with a mission of 
inspiring leaders, transforming organizations and building businesses 
through education, leadership development and the creation of trusted 
relationships.
    Today, the EWF has over a thousand members Nation-wide--from 
emerging leaders to senior executives, all of whom benefit from the 
organization's programs and events.
    EWF members support each other in achieving their goals and 
advancing their careers by celebrating each other's accomplishments and 
acknowledging the ideas and contributions of the women around us.
    Most notably, each year EWF presents Women of Influence Awards to 
individuals who have made outstanding contributions in the corporate, 
Government/academic and vendor sectors.
    The EWF's, ``2017 Global Information Security Workforce Study: 
Women in Cybersecurity'' report delivers troubling statistics on areas 
we are missing the mark in maximizing the participation of women in the 
cybersecurity workforce.
    Fifty-one percent of women report various forms of discrimination 
in the cybersecurity workforce.
    Women who feel valued in the workplace have also benefited from 
leadership development programs in greater numbers than women who feel 
undervalued.
    In 2016 women in cybersecurity earned less than men at every level.
    We know that cybersecurity expertise is a critical component of 
National security; however, Federal agencies have traditionally 
struggled to recruit, retain, and manage a robust cybersecurity 
workforce.
    The International Consortium of Minority Cybersecurity 
Professionals (IC-MCP) launched in 2014 with a mission to bridge this 
``great cyber divide'' in the cybersecurity profession. ICMCP offers 
programs and services to these groups to assist them in gaining skills 
and visibility to promote their careers, including:
  <bullet> Mentoring opportunities for entry- and mid-career 
        cybersecurity professionals;
  <bullet> Networking opportunities;
  <bullet> Skills workshops.
    In 2015, I was pleased to host the International Consortium of 
Minority Cybersecurity Professionals for its first meeting held on 
Capitol Hill.
    The vision of ICMCP is to build a pipeline of cybersecurity 
professionals at all levels, and support them throughout their careers.
    ICMCP efforts have the potential to broaden the pool of available 
experienced cybersecurity professionals.
    This Congress I introduced H.R. 1981, the Cyber Security Education 
and Federal Workforce Enhancement Act, which creates programs to 
support underrepresented minorities in computer security fields.
    I understand that the supply of educated and certified 
cybersecurity professionals is too few when compared with the thousands 
of positions that need them.
    As a result, talented candidates can demand higher salaries, more 
flexible hours, and other benefits that are incompatible with the 
Federal hiring process.
    Priorities within the workforce have also changed.
    For instance, millennials change employers more frequently than 
their predecessors and place a high value on flexible work schedules 
and professional development opportunities.
    I strongly believe that we have untapped talent within the Federal 
workforce, and we have potential pools of talented young people who are 
in underrepresented communities around the Nation that we must reach 
during their formative education to prepare them for potential 
cybersecurity careers.
    We are not supporting DHS with a policy that would allow the agency 
to pursue talent regardless of where it might be found.
    So long as DHS attempts to compete for cybersecurity talent in the 
same market where the private-sector businesses are competing, the 
results will not change.
    We must be creative and engage in broader thinking that does not 
limit our view of who can be a cybersecurity professional.
     potential for dhs to succeed in recruitment and retention of 
                      cybersecurity professionals
    The 2017 Global Information Security Workforce Study: Women in 
Cybersecurity issued by the Executive Women's Forum, stresses what we 
already know; some segments of the workforce are underrepresented in 
the cybersecurity field. Women professionals make up only 11 percent of 
the cybersecurity workforce despite the escalating growth in the field.
    The participation of women in cybersecurity is at 11 percent 
although women reported higher levels of education.
    These underrepresented groups offer an opportunity to increase the 
cybersecurity workforce in the near and long term.
    This is important because both Gen Y and Gen Z have significant 
numbers of minorities who could significantly close the cybersecurity 
gap.
    I look forward to working with the Chair and Ranking Members on 
increasing diversity in the Federal cybersecurity workforce.
    Thank you.

    Mr. Richmond. I now want to welcome our panel of witnesses.
    First, we have Mr. Wesley Simpson, the chief operating 
officer for the International Information Systems Security 
Certification Consortium, better known as (ISC)\2\.
    (ISC)\2\ is the world's largest IT security organization 
for cybersecurity professionals, and we rely heavily on the 
studies they produce, and the data they use to track work force 
trends in the United States and abroad. I had the pleasure of 
speaking at their conference last year in New Orleans.
    Next, I would like to welcome my friend, former colleague 
in the Louisiana State House, former State senator, and 
president Rick Gallot of Grambling State University, an HBCU in 
Louisiana that produces 40 percent of the State's African 
American computer science graduates, and plans to begin 
offering a new bachelor's degree in cybersecurity this year.
    I hope you will tell us how we can build better 
partnerships to help the Federal Government leverage the talent 
coming out of minority-serving institutions like Grambling 
State University.
    We also have Dr. Amelia Estwick from the National 
Cybersecurity Institute at the Excelsior College.
    Dr. Estwick has spent her career on the front lines of this 
issue; first in the United States Army, then for 15 years at 
the National Security Agency, where she was a technical 
director for cyber threat operations.
    I look forward to hearing her unique perspective as a 
veteran, a former Federal official, and in academia, where she 
is helping to educate the next generation of cybersecurity 
professionals.
    Finally, I would like to welcome Ms. Candace Worley, the 
vice president and chief technical strategist for McAfee, who 
will tell us about some of the good work being done in the 
private sector to grow and diversify this cyber talent 
pipeline.
    Mr. Richmond. Without objection, the witnesses' full 
statements will be inserted into the record. I will now ask 
each witness to summarize his or her statement in 5 minutes, 
beginning with Mr. Simpson.

     STATEMENT OF WESLEY SIMPSON, CHIEF OPERATING OFFICER, 
    INTERNATIONAL INFORMATION SYSTEM SECURITY CERTIFICATION 
                           CONSORTIUM

    Mr. Simpson. Mr. Chairman and esteemed Members of the 
committee, thank you for inviting me here today to testify on 
behalf of (ISC)\2\ regarding the goal of a more inclusive and 
diverse cybersecurity work force.
    My name is Wesley Simpson, and I am the chief operating 
officer for (ISC)\2\, headquartered in the United States.
    (ISC)\2\ is the world's largest nonprofit membership 
association of certified cybersecurity professionals. We 
function as an advocate for the cybersecurity profession, and 
as a training and certification body.
    Our certifications are approved by the American National 
Standards Institute, or ANSI, which the primary organization 
for fostering the development of technology standards in the 
United States.
    As part of our association's stated mission to inspire a 
safe and secure cyber world, we regularly commission market 
research and a host of relevant industry topics that help to 
inform our global base of more than 140,000 certified members 
across more than 170 countries, as well as influence policy 
discussions, corporate programs, and educational opportunities.
    In the course of doing so, we have issued research related 
to the size of the cybersecurity work force gap since 2004. The 
state of the industry has changed quite a bit over that time, 
and (ISC)\2\ is constantly identifying ways to improve its 
research methodology to keep up with the evolution of the 
marketplace.
    As part and parcel of the work force research, we are in 
position to be able to identify the demographic makeup of the 
cybersecurity work force as it changes, and I am pleased to 
share some of those findings with you today, as well as some 
conclusions we might draw from them.
    A recent round of work force research was conducted in 
2018, and it reveals a cybersecurity work force shortage of 
498,000 skilled professionals just in the United States, and 
2.93 million globally. This points to a growing gap in the 
amount of cybersecurity staff the private sector and governing 
bodies indicate they need to maintain optimal security, and the 
amount of skilled professionals currently available.
    As a point of clarification, this is not meant to indicate 
that there are currently one-half open--million open or 
unfilled jobs.
    As we collectively explore ways in which the talent pool 
can be increased, it is important to recognize the clear 
underrepresentation of women in the cybersecurity work force.
    While Department of Labor statistics indicate that women 
make up 47 percent of the overall U.S. labor force, our 
research shows that only constitutes 22 percent of U.S. 
cybersecurity staff, and only 24 percent of the global staff.
    To be more specific, that figure includes anyone from whom 
at least 20 percent of their daily job tasks consists of 
security-related activities, not just those with cybersecurity 
titles. This expands our view to include those with IT roles, 
for example, who have some cybersecurity responsibilities. This 
change to our methodology was made in 2018 to more closely 
mirror the reality of how cybersecurity is executed around the 
ground levels, and, more importantly, by who.
    We also found that pay and equity between genders remains 
an issue, and is something that could affect a woman's decision 
to pursue a career in this field.
    If we can find ways to attract women to cybersecurity and 
make it a welcoming profession, we may be able to decrease the 
cybersecurity work force gap to a large degree. There are more 
findings specific to our 2019 ``Women in Cybersecurity'' report 
found in my written testimony. But I want to highlight the 
obvious underrepresentation as a key datapoint for our 
discussion here today.
    Another underrepresented group identified through our 
research is ethnic and racial minorities. Our 2018 study titled 
``Innovation Through Inclusion: The Multicultural Cybersecurity 
Workforce,'' showed that just 26 percent of the U.S. 
cybersecurity work force identifies as non-Caucasian. While 
this compares favorably with the Department of Labor statistics 
that shows only 22 percent of the overall U.S. labor force is 
made up of minorities, this is still a low ratio that could be 
improved by creating programs that specifically market the path 
to a cybersecurity career to a wider talent pool.
    Furthermore, employment among cybersecurity professionals 
who identify as racial or ethnic minorities tends to be 
concentrated in nonmanagement positions, with fewer occupying 
leadership roles, despite being highly educated. Here as well, 
our research showed that inequity in pay exists. Despite higher 
levels of education, a cybersecurity professional of color 
earns less than their Caucasian counterparts, on average.
    Under-participation in cybersecurity by large segments of 
our potential work force, be it women or minorities, represents 
a loss of opportunities for individuals, and a loss of 
collective creativity in solving the problems we face in the 
field. Not only is this an issue of inequity, it is a threat to 
our global economic viability as a Nation.
    The major opportunities, as we see them, are stronger, more 
focused on equal pay for women and minorities in cybersecurity, 
more advancement and leadership opportunities for deserving 
professionals, formalized mentorship programs to help unearth 
untapped potential and hidden talent, and more programs that 
expose young women and minorities to technical skills earlier 
in their educational lives.
    I thank you for your time today, and look forward to 
answering any questions you may have to the best of my ability.
    [The prepared statement of Mr. Simpson follows:]
                  Prepared Statement of Wesley Simpson
                              May 21, 2019
    Mr. Chairman and esteemed Members of the committee, thank you for 
inviting me here today to testify on behalf of (ISC)\2\ regarding the 
goal of a more inclusive and diverse cybersecurity workforce. My name 
is Wesley Simpson, and I am the chief operating officer for (ISC)\2\. 
Headquartered right here in the United States, (ISC)\2\ is the world's 
largest nonprofit membership association of certified cybersecurity 
professionals. We function as an advocate for the cybersecurity 
profession and as a training and certification body. Our certifications 
are approved by the American National Standards Institute (ANSI), which 
is the primary organization for fostering the development of technology 
standards in the United States.
    As part of our association's stated mission to inspire a safe and 
secure cyber world, we regularly commission market research on a host 
of relevant industry topics that help to inform our global base of more 
than 140,000 certified members across more than 170 countries, as well 
as influence policy discussions, corporate programs, and educational 
opportunities. In the course of doing so, we have issued research 
related to the size of the cybersecurity ``workforce gap'' since 2004. 
The state of the industry has changed quite a bit over that time, and 
(ISC)\2\ is constantly identifying ways to improve its research 
methodology to keep up with the evolution of the market.
    As part and parcel of our workforce research, we are in a position 
to be able to identify the demographic make-up of the cybersecurity 
workforce as it changes, and I'm pleased to share some of those 
findings with you today, as well as some conclusions we might draw from 
them.
    Our most recent round of workforce research was conducted in 2018 
and reveals a cybersecurity workforce shortage of 498,000 skilled 
professionals in the United States alone, and 2.93 million globally. 
This points to a growing gap in the amount of cybersecurity staff that 
private sector and Government bodies indicate they need to maintain 
optimal security, and the amount of skilled professionals currently 
available. As a point of clarification, this is not meant to indicate 
that there are currently one-half million open or unfilled jobs.
    As we collectively explore ways in which the talent pool can be 
increased, it's important to recognize the clear under-representation 
of women in the cybersecurity workforce. While Department of Labor 
statistics \1\ indicate that women make up 47 percent of the overall 
U.S. labor force, our research shows that they only constitute 22 
percent of U.S. cybersecurity staff, and only 24 percent of global 
staff. To be more specific, that figure includes anyone for whom at 
least 25 percent of their daily job tasks consist of security-related 
activities, not just those with cybersecurity titles. This expands our 
view to include those with IT roles, for example, who have some 
cybersecurity responsibilities. This change to our methodology was made 
in 2018 to more closely mirror the reality of how cybersecurity is 
executed at the ground level, and more importantly, by who. We also 
found that pay inequality between genders remains an issue and is 
something that could affect a woman's decision to pursue a career in 
our field.
---------------------------------------------------------------------------
    \1\ U.S. Department of Labor--https://www.dol.gov/wb/stats/
NEWSTATS/latest/demographics.htm#LF-SecRaceEthnicity.
---------------------------------------------------------------------------
    If we can find more ways to attract women to cybersecurity and make 
it a welcoming profession, we may be able to decrease the cybersecurity 
workforce gap to a large degree. There are more findings specific to 
our ``2019 Women in Cybersecurity Report'' found in my written 
testimony, but I wanted to highlight the obvious underrepresentation as 
the key data point for discussion here today.
    Another underrepresented group identified through our research is 
ethnic and racial minorities. Our 2018 study titled, ``Innovation 
Through Inclusion: The Multicultural Cybersecurity Workforce,'' showed 
that just 26 percent of the U.S. cybersecurity workforce identifies as 
non-Caucasian. While this compares favorably to Department of Labor 
statistics that show only 22 percent of the overall U.S. labor force is 
made up of minorities,\2\ this is still a low ratio that could be 
improved by creating programs that specifically market the path to a 
cybersecurity career to a wider talent pool.
---------------------------------------------------------------------------
    \2\ U.S. Department of Labor--https://www.bls.gov/opub/reports/
race-and-ethnicity/2017/home.htm.
---------------------------------------------------------------------------
    Furthermore, employment among cybersecurity professionals who 
identify as racial or ethnic minorities tends to be concentrated in 
non-management positions, with fewer occupying leadership roles, 
despite being highly educated. And here as well, our research showed 
that an inequity in pay exists. Despite higher levels of education, a 
cybersecurity professional of color earns less than their Caucasian 
counterparts on average.
    Under-participation in cybersecurity by large segments of our 
potential workforce, be it women or minorities, represents a loss of 
opportunity for individuals and a loss of collective creativity in 
solving the problems we face in the field. Not only is this an issue of 
inequity, it is a threat to our global economic viability as a Nation. 
The major opportunities as we see them are a stronger focus on equal 
pay for women and minorities in cybersecurity, more advancement and 
leadership opportunities for deserving professionals, formalized 
mentorship programs to help unearth untapped potential and hidden 
talents, and more programs that expose young women and minorities to 
technical skills earlier in their educational lives.
    I thank you for your time today and look forward to answering any 
questions you may have to the best of my ability.
                                 ______
                                 
    Following are key data points from (ISC)\2\'s two most recent 
studies that touch on diversity. The first is the ``Innovation Through 
Inclusion: The Multicultural Cybersecurity Workforce'' study (submitted 
as Exhibit A) which was released in March 2018 (based on 2017 data from 
the (ISC)\2\ Global Information Security Workforce Study--submitted as 
Exhibit B). The second is the ``2019 Women in Cybersecurity Report'' 
(submitted as Exhibit D) (sourced from data within the 2018 
Cybersecurity Workforce Study--submitted as Exhibit C). Key data points 
from each are identified below.
                      minorities in cybersecurity
    The diversity report was developed by (ISC)\2\ and The Center for 
Cyber Safety and Education in partnership with Frost & Sullivan. 
Although the study is global in its scope, questions of race and 
ethnicity were asked only to respondents in the United States. This 
report was developed by (ISC)\2\ in partnership with the International 
Consortium of Minority Cybersecurity Professionals (ICMCP). Findings 
were based on survey responses from 9,500 U.S. cybersecurity 
professionals.
    Employment among cybersecurity professionals who identify as a 
racial or ethnic minority tends to be concentrated in non-management 
positions, with fewer occupying leadership roles, despite being highly 
educated.
Key Findings
  <bullet> Minority representation within the cybersecurity field is at 
        26 percent, which is slightly higher than the overall U.S. 
        minority workforce, which was at 21 percent at the time the 
        study was conducted.
  <bullet> 62 percent of minorities in cybersecurity have obtained a 
        master's degree or higher, compared to 50 percent of 
        professionals who identified as White or Caucasian.
  <bullet> 23 percent of minority cybersecurity professionals hold a 
        role of director or above, compared to 30 percent of their 
        Caucasian peers.
  <bullet> On average, a cybersecurity professional of color earns 
        $115,000, while the overall U.S. cybersecurity workforce 
        average is $122,000.
  <bullet> 32 percent of cybersecurity professionals of color report 
        that they have experienced some form of discrimination in the 
        workplace.
  <bullet> To foster diversity in the workplace, 49 percent of minority 
        cybersecurity professionals said mentorship programs are very 
        important.
Conclusions
  <bullet> Despite higher levels of education, a cybersecurity 
        professional of color earns less and is underrepresented in 
        senior roles.
    <bullet> Racial and ethnic minorities tend to hold non-managerial 
            positions, and pay discrepancies, especially for minority 
            women (women of color make an average of $10,000 less than 
            Caucasian males and $6,000 less than Caucasian females), is 
            a challenge.
  <bullet> With the estimated global cybersecurity workforce shortage 
        at 2.93 million, we need to make the profession inviting to 
        all.
  <bullet> Understanding the challenges our profession faces related to 
        diversity is a critical first step in accomplishing that goal 
        and ultimately addressing the widening cybersecurity workforce 
        gap.
  <bullet> Mentorship programs and better representation in senior 
        roles are needed to help advance minority cybersecurity 
        professionals.
  <bullet> Companies with more diverse workplaces perform better 
        financially. (Data from McKinsey and Company report titled: 
        ``Is There a Payoff from Top-Team Diversity?'')
Key Takeaway
  <bullet> Under-participation in cybersecurity by large segments of 
        our potential workforce represents a loss of opportunity for 
        individuals and a loss of creativity in solving the problems we 
        face in the field. Not only is this an issue of inequity, it is 
        a threat to our global economic viability as a Nation. The 
        major opportunities as we see them are a stronger focus on 
        equal pay for minorities in cybersecurity, more advancement and 
        leadership opportunities for deserving professionals, and 
        formalized mentorship programs to help unearth untapped 
        potential and hidden talents.
                         women in cybersecurity
    On Tuesday, April 2, 2019, (ISC)\2\ issued its 2019 Women in 
Cybersecurity Report (sourced from data within the 2018 Cybersecurity 
Workforce Study). The headline finding from the report was that women 
make up an estimated 24 percent of the global cybersecurity workforce.
    It's important to understand where this number came from. The 
figure is derived from the Workforce Study, which was actually fielded 
twice within the 2018 calendar year in order to confirm the relative 
accuracy and integrity of the data. Both waves of research produced the 
same statistically valid results.
    Last year's global Workforce Study was a departure from the way 
past studies have been fielded and the way the workforce gap had been 
calculated previously, and that's what has led to a seeming increase of 
women in the field from 11 percent to 24 percent over the 2-year period 
since we released our last Women in Cybersecurity report. As such, we 
do not make the claim that there has been a 13 percent increase over a 
2-year period, but we feel that our new methodology (explained in the 
section below) provides a more accurate picture than ever before of the 
true make-up of the workforce.
    IMPORTANT: We did not address the issue of discrimination against 
women in this report, so we don't have data to share. While it is an 
important topic of discussion in our industry, this particular report 
does not address it specifically and we focused on the demographic of 
professionals in the workforce as opposed to the hurdles they face.
Methodology
    Past (ISC)\2\ research had estimated the percentage of women 
working in cybersecurity at 11 percent, but with a change to research 
methodology--including surveying IT/ICT professionals who spend at 
least 25 percent of their time on security activities--that number is 
now believed to be 24 percent. Results presented in the report are 
extracted from a study conducted by (ISC)\2\ and Spiceworks in August 
2018. The sample structure was carefully designed to obtain feedback 
from a diverse group of professionals working in cybersecurity roles 
and the survey measured various aspects of working in the cybersecurity 
field including workforce staffing shortages, education and skills 
needed to do the job, and challenges faced in the profession. One 
thousand four hundred fifty-two individuals from North America, Latin 
America, and Asia-Pacific participated in the survey. The margin of 
error for this research is plus or minus 3 percent at a 95 percent 
confidence level.
    Below are the 3 key messages that rise to the surface related to 
the report. Following those, some notes on other relevant data points 
that may be of interest.
Key Findings
    (1) Today's figure reflects more women in cybersecurity than 
previously estimated
  <bullet> 24 percent of the overall cybersecurity workforce is female. 
        Recruiting from traditionally overlooked demographics will be a 
        huge part of closing the current global talent gap of 2.93 
        million. We need more women and more young talent to join us, 
        as well as individuals who want to transfer other skills into a 
        career in cybersecurity; and we need to show them why and how 
        they should do so.
    (2) These women are younger, highly educated and moving into 
leadership roles
  <bullet> 45 percent of women surveyed are millennials, compared to 
        just 33 percent of men. This will radically alter the gender 
        balance in the cybersecurity profession in the next decade, as 
        the Baby Boomer generation continues to retire in larger 
        numbers.
  <bullet> Women also bring higher levels of education to 
        cybersecurity. More women (52 percent) in the survey hold a 
        post-graduate degree than their male counterparts (44 percent).
  <bullet> Women in the field are advancing to leadership positions. 
        Higher percentages of women than men are attaining senior 
        leadership and decision-making positions.
    <bullet> Chief Technology Officer--7 percent of women vs. 2 percent 
            of men
    <bullet> Vice President of IT--9 percent of women vs. 5 percent of 
            men
    <bullet> IT Director--18 percent of women vs. 14 percent of men
    <bullet> C-level/Executive--28 percent of women vs. 19 percent of 
            men
    (3) There are still challenges to face, including pay inequity
  <bullet> 17 percent of women globally reported annual salaries 
        between $50,000-$90,000, as compared to 29 percent of men, and 
        15 percent of women earn between $100,000-$499,999, while 20 
        percent of men earn at least that much.
    Other key data points to be aware of:
  <bullet> Women and men have pretty much the same workplace values, 
        priorities, and aspirations. Both place a similar level of 
        importance on salary and working close to home and use the same 
        skills at work.
  <bullet> The report indicates that men and women share a lot of the 
        same concerns about their roles, including lack of commitment 
        from upper management, the reputation of their organization, 
        risk of seeing their job outsourced, lack of work/life balance, 
        the threat of artificial intelligence (AI) reducing the need 
        for cybersecurity workers and a lack of standardized 
        cybersecurity terminology to effectively communicate within 
        their organizations.
Key Takeaway
  <bullet> Although we now see women making up nearly one-quarter of 
        the cybersecurity workforce, we need more gender balance in 
        order to strengthen our National and global cybersecurity 
        readiness. The opportunities that exist revolve around making 
        cybersecurity a more attractive career path for women. This 
        could be supported by enforcement of equal pay between genders 
        and the creation of more programs that expose young women to 
        technical skills earlier in their educational lives.
    In terms of breaking down the roles in which women participate in 
cybersecurity (hence the jump from 11 percent to 24 percent), it is 
difficult to draw any hard and fast conclusions and this is a pretty 
nuanced point, but I think the first attachment to this email is a good 
way to look at the differences. You can see that men disproportionately 
outnumber women in the roles of Security Specialist and Security/
Compliance Officer, both of which would be considered ``cybersecurity'' 
titles that would have been included in our research prior to 2018. 
When you add in roles such as Help Desk Technician, IT Director, VP IT 
and CTO, you can see that there are a higher percentage of women. Of 
course, that doesn't mean there are more women than men because women 
still represent a 3-1 minority ratio of the overall total in the 
profession, but you can see how that percentage of women starts to 
shoot up from 11 percent to 24 percent with the inclusion of the more 
general IT roles. Additionally, it's important to understand that our 
data prior to 2018 also largely surveyed (ISC)\2\ members as part of 
the sample, and our members are required to have at least 5 years of 
professional experience in cybersecurity in order to earn a 
certification. Therefore, when we opened up the survey to a broader 
audience and adjusted the methodology, this led to the inclusion of 
many other professionals who, while they have not been certified, are 
still doing the work of cybersecurity. That added a larger percentage 
of women to the overall count.

    Mr. Richmond. Thank you, Mr. Simpson.
    I now recognize Mr. Gallot to summarize his statement for 5 
minutes.

   STATEMENT OF RICHARD J. ``RICK'' GALLOT, JR., PRESIDENT, 
                   GRAMBLING STATE UNIVERSITY

    Mr. Gallot. Thank you, Chairman Richmond, Ranking Member 
Mr. Katko, and the distinguished Members of the Homeland 
Security Subcommittee on Cybersecurity and Infrastructure 
Protection.
    On behalf of the team at Grambling State University, the 
University of Louisiana system, who is represented here by Dr. 
Jim Henderson, system president, and historically black 
colleges and universities across the United States of America, 
we sincerely appreciate this opportunity, and coming 
opportunities, to collaborate.
    As president of Grambling State University, I am privileged 
to lead a campus community that includes more than 5,200 
students, and 550 staff and faculty, as well as students who 
represent 42 States and 27 foreign countries, to help address 
Louisiana and the United States' vital work force needs for the 
past 118 years.
    Founded in 1901, our university is well-known outside of 
the classroom for our historic football and Coach Eddie 
Robinson, our world-famed Tiger marching band, and as our motto 
being ``the place where everybody is somebody.''
    In contrast, it is our innovation inside the classroom that 
is the true foundation for our legacy. That foundation is what 
provides us the opportunity to share with you today.
    For generations, Grambling State University has led 
Louisiana in equipping and building the technology work force. 
As I mentioned in our submitted testimony, Grambling State 
University has produced technology leaders since 1972, partners 
with America's largest technology companies on talent 
development with IBM, CenturyLink, Microsoft, and many others. 
We continue to lead Louisiana in producing African-American 
computer science and computer information system graduates.
    We are a small but mighty force along Interstate 20, which 
is fastly becoming the cyber corridor of North Louisiana. Our 
university's record-breaking enrollment growth, increases in 
fiscal health and partnerships are helping create Louisiana's 
most educated generation in history.
    That generation includes students like Jarrid Richards. 
Jarrid is a senior in our computer science program, who is a 
great example of how holistic investment in minority students 
produces expert talent in the fields of technology and 
cybersecurity.
    Today, we are able to help close the widening cybersecurity 
job gap by supporting students like Jarrid. During his time at 
Grambling State, there were a few semesters where he 
encountered a gap, as many of our students do, between the 
amount of aid and his cost to attend. While Jarrid worked three 
jobs around campus, there were semesters when without 
scholarships and grants, he may not have been able to continue 
his education.
    When Jarrid was looking for career experience, our 
partnership with CLECO, a local energy provider, was able to 
provide him his first hands-on experience with network security 
and preventing cyber threats.
    Those investments and the mentorship of his professor, Dr. 
Reddy, positioned Jarrid to finish this year with multiple 
internship offers and early conversations about full-time 
opportunities when he graduates this fall.
    He is just one example of how the collaboration between 
HBCUs and powerful partners can help companies, communities, 
and, most importantly, students.
    I am excited to share that our Governor, Governor John Bel 
Edwards, our Board of Regents, our University of Louisiana 
system, and communities, see our power and have selected our 
university to offer the State's first bachelor's degree in 
cybersecurity.
    We are honored to lead the next generation of Louisiana 
innovation, and are excited to join this committee's historic 
discussion on how we can support our country.
    We thank you for this opportunity and look forward to 
answering any questions, Mr. Chairman, and Ranking Member. 
Thank you.
    [The prepared statement of Mr. Gallot follows:]
              Statement of Richard J. ``Rick'' Gallot, Jr.
                              May 21, 2019
    Thank you to Chairman Richmond, Ranking Member Mr. Katko, and the 
distinguished Members of the Homeland Security Subcommittee on 
Cybersecurity and Infrastructure Protection. On behalf of the team at 
Grambling State University, the University of Louisiana System, and 
Historically Black Colleges and Universities across the United States, 
we sincerely appreciate this and the coming opportunities to 
collaborate on addressing one of America's most critical workforce 
development needs.
    As president of Grambling State University, I am privileged to lead 
a campus community that includes more than 5,200 students, 550 faculty 
and staff, and countless North Louisiana constituents who have helped 
address the vital workforce needs in our State for 119 years. Founded 
in 1901, our University's well-known outside of the classroom for our 
historic and the most-winning football coach in history, Coach Eddie 
Robinson; our world-famed and Super Bowl-performing Tiger marching 
band; and being, as our motto states, ``the place where everybody is 
somebody.''
    However, it's our innovation inside of the classroom that is the 
true foundation for our legacy and what provides the unique opportunity 
to share with you.
    Today, I am excited to provide background on why we were chosen as 
home to Louisiana's first bachelor's degree in cybersecurity and how 
HBCUs, like Grambling State, are well-positioned to deliver the highest 
return on investment when developing talent in the fields of STEM, 
cybersecurity, and related industries.
    Since 1972, Grambling State has led Louisiana in producing African 
American Computer Science graduates. Our former students have gone on 
to lead information technology (IT) and threat prevention efforts for 
America's leading companies. From technology providers like CenturyLink 
and IBM to consumer and retail giants that include Sara Lee, General 
Electric, and General Motors, we have a long legacy of growing the 
senior-level talent that helps shape American technology.
    Now, that might seem odd to hear of a small school located in rural 
North Louisiana, but our achievement isn't uncommon if you know the 
story of America's HBCUs. Today, we at Grambling State lead as 
Louisiana's No. 1 producer of computer and information science 
graduates--in fact, we outpace all others in our State by at least 27 
percent. Today, we are weeks from launching America's 13th 
Cybersecurity undergraduate program and the first in our State. Today, 
we are realizing growth that includes a 5-year enrollment high, a 100 
percent increase in our fiscal health score, and an economic impact of 
more than $175 million.
    In contrast, there is another impactful fact about today that 
exists for us and our sister HBCUs. At GSU, while we have a long legacy 
of partnering with America's technology giants to grow IT innovators, 
we also lead in facing the challenges of deferred maintenance, 
recruiting and retaining faculty, and competing for the Federal, 
corporate, and partnership dollars that will help us realize our full 
vision for workforce development through academic attainment.
    Although our Nation's HBCUs make up just 3 percent of colleges and 
universities, we produce 27 percent of African-American graduates with 
bachelor's degrees in STEM fields. In addition, the National Science 
Foundation reports that 21 of the top 50 institutions for educating 
African-American graduates who go on to receive their doctorates in 
science and engineering, are HBCUs.
    At Grambling State, we are proud to stand as a member of a lean, 
but mighty force of historically black schools who continue to prove 
that we are the best partners for addressing America's workforce 
challenges--most uniquely, those in the fields of cybersecurity and 
data-driven threat prevention.
    As we look forward to a world that is poised to spend $180 billion 
on cybersecurity in the year 2021, we don't see our challenges, we see 
an opportunity. With the right and robust support, we know that we are 
one of America's most critical answers for filling the 3-million-person 
job gap that exists globally in cybersecurity today.
    The investments, that partners like the Department of Homeland 
Security have the ability to make, will do more than just mitigate the 
Nation's trillions of dollars in cyber risk. These investments will 
also substantively change the trajectory of students, families, and the 
communities who are served by HBCUs. Data from the Social Security 
Administration shows that your partnership with HBCUs will help raise 
the average salary of our graduates by more than 40 percent. In 
addition, studies from McKinsey and Company show us that these more-
diverse workforces will help grow company earnings by 14 percent.
    When it comes to investing in cybersecurity programs and 
initiatives at HBCUs, there is only one way to lose--and that is 
through inaction. We are extremely encouraged by the steps the Members 
of this committee and leaders throughout our Nation are making to 
include historically black schools in the conversation about how we 
best protect our Nation.
    The positive vibrations of the work you do here on Capitol Hill 
will extend all the way to the classrooms and the lives of our students 
in North Louisiana. When partners like Governor John Bel Edwards and 
Federal agencies get involved, we are empowered to create opportunities 
that change the lives of students like Jarrid Richards.
    Jarrid is a senior in our computer science program who has ended up 
in my office with a need many times. He is a great example of how a 
holistic investment in minority students can help positively impact the 
trajectory of a person and a company.
    During Jarrid's time at Grambling State, there were a few semesters 
where he encountered a gap, as many of our students do, between Federal 
aid and his cost to attend. And, while Jarrid worked 3 jobs around 
campus, there were semesters when without scholarships and grants, he 
may not have been able to continue his education. When Jarrid was in 
need of career development, our partnership with CLECO, a local energy 
provider, was able to provide him his first hands-on experience with 
network security and preventing cyber threats.
    Those investments and the mentorship of his professor Dr. Reddy 
positioned Jarrid to finish this school year with multiple internships 
offers and at least two full-time job opportunities that will be 
waiting when he graduates this fall.
    And, while Jarrid's perseverance and grit may stand out among our 
students, his needs do not. He is much like many students at minority-
serving institutions--who just need an opportunity and investment to 
become the game-changing answers to the needs of American companies and 
communities today.
    It's my extreme honor to lead a university who produces thousands 
of Jarrids and other innovators who history shows are changing the way 
our world works. It is my hope that we, Grambling State and other 
HBCUs, will be offered the opportunity to partner in continuing to 
secure America's future and producing the workforce talent that will 
help our Nation remain a leader in innovation.
    Thank you.

    Mr. Richmond. Thank you, Mr. Gallot.
    All right. I now recognize Ms. Estwick to summarize her 
statement in 5 minutes.

STATEMENT OF AMELIA ESTWICK, NATIONAL CYBERSECURITY INSTITUTE, 
                       EXCELSIOR COLLEGE

    Ms. Estwick. Thank you, Chairman Richmond and Ranking 
Member Katko, and esteemed Members of the subcommittee.
    I am proud and honored to appear before you today to 
discuss the challenges for growing and diversifying the cyber 
talent pipeline. As the director of the National Cybersecurity 
Institute at Excelsior College, I will speak passionately on 
this topic from my perspectives as a black woman, United States 
Army veteran, cybersecurity practitioner, computer science 
researcher, educator, and life-long public servant.
    My career began in the early 1990's, when I enlisted in the 
United States Army, to work in the information security field. 
During the Gulf War, it became clear that safeguarding and 
protecting our data and resources was paramount to our National 
security. Since then, I have earned my bachelor's, master's, 
and doctorate degrees in computer science, thanks to earning a 
National Physical Science Consortium fellowship that was 
sponsored by the National Security Agency while working as a 
civilian in the intelligence community.
    While 30 years have passed since my entry in the field, I 
still have that same sense of urgency. This is why I feel 
growing and diversifying the cyber talent pipeline is one of 
the most important work force issues we address today.
    The recent Executive Order on America's cybersecurity work 
force highlights some important programs that the Federal 
Government will explore in the near future. As we work 
collaboratively to address work force needs, I would like to 
recommend a focus on continued support for initiatives that are 
already facilitating the growth and diversification of the 
cyber talent pipeline.
    For one, the importance of higher ed. The job market is 
changing rapidly, and occupations in multiple disciplines 
increasingly require technological ability, communication 
skills, and post-secondary degrees. Associate degrees are often 
great pathways to entry-level employment, and recent statistics 
state 40 percent of people who earn associate degrees go on to 
earn higher degrees.
    Working adults can leverage their compensation from work 
and tuition assistance benefits from employers to further their 
education, and on-line models, like Excelsior College, provide 
the flexibility required to continue education while working.
    Second thing is creating opportunities for current Federal 
employees to earn academic credentials. According to a recent 
OPM profile of Federal civilian nonpostal employees, 51 percent 
of the Federal work force has a bachelor's degree or higher.
    In 2014, the OPM created the Federal Academic Alliance to 
provide higher education opportunities to Federal work force at 
reduced tuition rates to address the Government-wide skills gap 
needs, including the shortages in cybersecurity.
    Today, OPM endorses 15 colleges and universities, such as 
Excelsior College, and support for more educational 
opportunities would be beneficial to the Federal work force.
    Three, fostering public and private partnerships. 
Cooperation of private industry, academia, and Governmental 
agencies on joint cybersecurity initiatives can take advantage 
of each sector's complementary strengths. For example, through 
apprenticeships, internships, and work-study programs, students 
and employees can get first-hand experience with the cyber 
threats facing businesses, governments, and nonprofits. Such 
experiences are particularly important for individuals seeking 
a career change to access the opportunities in cybersecurity. 
Also providing employees with opportunities to cross-train will 
address the upscaling and rescaling needed for creating a 
pipeline of cybersecurity professionals.
    Last, addressing the K-12 cybersecurity education. As an 
educator and an advocate for equity and inclusion in STEM and 
cybersecurity, my outreach activities often place me in 
communities with little awareness about how cybersecurity is 
applicable to their own lives. This troubles me, because I know 
that we need to create sustainable STEM and cybersecurity 
programs that emphasize problem solving, critical thinking, and 
effective communication skills.
    Programs to educate the K-12 ecosystem are important, not 
only because there is a--a need--excuse me--to protect our 
digital infrastructure, but also because our youth represent 
the next generation of cybersecurity professionals.
    Mr. Chairman, Ranking Member Katko, and subcommittee 
Members, in closing, to address the hundreds of thousands of 
jobs that are currently unfilled and will continue to grow 
unfilled as technology advances, the work force will need to 
have the breadth and diversity of initiatives across multiple 
sectors to support the growth and diversity of the cyber talent 
pipeline.
    This pipeline can be sustained by recruiting, retaining, 
and advancing populations, such as military and veterans with 
transferrable skills, individuals from underrepresented groups 
to include black, Latino, American Indian, Alaskan Natives, 
funding initiatives to support cybersecurity programs at 
minority-serving institutions, and support for advocacy groups 
whose focus on broadening participation within the 
cybersecurity field, such as Women in Cybersecurity and 
International Consortium of Minority Cybersecurity 
Professionals.
    Cybersecurity is a shared responsibility, and until we 
collaborate at all levels, to include local, State, and 
Federal, we will continue to operate in silos with the same 
results in the demographic composition of our work force.
    I thank the Chairman and the Ranking Member and the 
subcommittee for this extraordinary opportunity in providing me 
with not only a seat at the table, but also a voice.
    I am looking forward to answering any questions you may 
have. Thank you.
    [The prepared statement of Ms. Estwick follows:]
                  Prepared Statement of Amelia Estwick
                              May 21, 2019
    Thank you, Chairman Richmond, Ranking Member Katko, and Members of 
the House Homeland Security Subcommittee on Cybersecurity, 
Infrastructure Protection, and Innovation. I am proud and honored to 
appear before you today to discuss the challenges for growing and 
diversifying the cyber talent pipeline. According to the 2018 (ISC)\2\ 
Cybersecurity Workforce Study, the shortage of cybersecurity 
professionals is close to 3 million world-wide, with a shortfall of 
approximately 500,000 in North America. In addition, the report states 
``63 percent of respondents report that their organizations have a 
shortage of IT staff dedicated to cybersecurity while 59 percent say 
their companies are at moderate or extreme risk of cybersecurity 
attacks due to this shortage.'' Technology has become ubiquitous and 
necessary for conducting every facet of our daily lives; however, with 
the ever-present host of cyber threats our Nation is facing, it is 
imperative we have a workforce that is skilled and educated to address 
cyber threats as well as our future technological needs.
    My name is Dr. Amelia Estwick, director of the National 
Cybersecurity Institute (NCI) at Excelsior College and faculty program 
director for the Excelsior College School of Graduate Studies' Master 
of Science in Cybersecurity Program. Prior to my academic position, I 
spent more than 20 years in Government service within the intelligence 
community (National Security Agency) and Uniformed Services (United 
States Army). I was the first African-American woman to graduate from 
NSA's Computer Network Operations Development Program, which was a 3-
year intense cyber operations technical leadership program focused on 
all aspects of cyber operations to include: Attack, exploitation, and 
defense. At NSA, I held multiple technical leadership positions, 
including computer science researcher and senior cybersecurity analyst, 
and prior to my departure in 2016, I was one of the few women technical 
directors within NSA's Cyber Threat Operations Center; a 24/7/365 cyber 
operations center responsible for monitoring and defending Department 
of Defense (DoD) networks globally. For me, reaching the technical 
director position was a great achievement, considering research by 
(ISC)\2\ show that while ``minority representation within the 
cybersecurity field is slightly higher (26 percent) than the overall 
U.S. minority workforce (21 percent) . . . racial and ethnic minorities 
tend to hold non-managerial positions, and pay discrepancies [prevail], 
especially for minority women.'' Although I've had a rewarding 
Government career, my concern for the lack of diversity amongst the 
cybersecurity workforce ultimately drove me to leave Government service 
and join academia to help with the Nation's need to grow and diversify 
the cybersecurity talent pipeline.
    In 2013, I joined Excelsior College as an instructional faculty 
member and subject-matter expert for their graduate cybersecurity 
courses. In 2016, I decided to join the college full-time as the NCI 
director and cybersecurity thought leader because I believed in its 
mission to provide educational opportunities to adult learners through 
their on-line programs who live across the United States and 
internationally. This call to service rang especially close to my heart 
as a veteran and knowing how important it is to provide educational 
services to active military members who may be stationed in remote 
locations. In 2014, NCI was established as an academic, training, and 
research center dedicated to assisting Government, industry, military, 
and academic sectors meet the challenges in cybersecurity policy, 
technology, and education. In addition, as part of its continuous 
efforts to build the cybersecurity workforce and influence an informed 
leadership base that implements cutting-edge cybersecurity policy, NCI 
launched its Initiative for Women in Cybersecurity (NCI's IWICS). As 
the director of NCI, I have been instrumental in collaborating with 
organizations, such as Women in Cybersecurity (WiCyS) and the 
International Consortium of Minority Cybersecurity Professionals 
(ICMCP) to promote activities focused on recruiting, retaining, and 
advancing women and minorities in cybersecurity.
              cybersecurity across the academic curriculum
    In March 2018, the Journal of The Colloquium for Information System 
Security Education (CISSE) published an article ``What Constitutes Core 
in a Cyber Security Curriculum?'' which discussed how expansive the 
cybersecurity field is and stressed the importance of academic 
institutions taking a multidisciplinary approach to teaching 
cybersecurity concepts. Cybersecurity curricula was originally rooted 
in computer science and technology programs; however, the 
operationalization of cybersecurity in our digital society has 
necessitated the expansion of a multidisciplinary curricula throughout 
the academic landscape. This expansion has impacted all disciplines to 
include business, law, health, and finance.
    Cybersecurity's multidisciplinary approach is further supported by 
the National Information Assurance (IA) Education and Training Programs 
(NIETP), which manages the National Centers of Academic Excellence 
(CAE) programs designated by NSA and the Department of Homeland 
Security (DHS). The goal of the CAE program is ``to reduce 
vulnerability in our National information infrastructure by promoting 
higher education and research in Cyber Defense (CD) and to produce a 
growing number of professionals with expertise in CD disciplines''. 
U.S. academic institutions whose cybersecurity programs meet the 
rigorous criteria to be either a CAE in Cybersecurity Defense Education 
(CDE), Cyber Operations (CO), or Research (R) are given this 
designation for a specified amount of years (usually 5 years) and an 
institution must apply for redesignation before it expires. 
Institutions with the CAE designation serve as National models for 
capacity-building of information security programs in higher education, 
while at the same time strengthening the Nation's infrastructure. CAE-
designated institutions benefit from internal and external recognition 
for faculty and graduates, collaboration opportunities with other CAE-
designated institutions, and funding from Federal, State, and local 
organizations. According to the National Centers of Academic 
Excellence, more than 230 institutions have been granted the CAE-CDE 
designation, including Excelsior College which was designated as a CAE-
CDE in 2014 (and subsequently redesignated in 2019).
    Furthermore, a multidisciplinary approach helps to address the 
recent Executive Order on America's Cybersecurity Workforce, which 
proposed an establishment of a cybersecurity rotational assignment 
program, to serve as a mechanism for knowledge transfer and a 
development program for cybersecurity practitioners. Providing 
educational opportunities along with the rotational assignment program 
will encourage upskilling/reskilling the current Federal and non-
Federal workforce to meet the demands of the 21st Century.
          the importance of partnering with community colleges
    According to the American Association of Community Colleges' 
January 2019 report, students enrolled for credit were 56 percent women 
and 38 percent Hispanic/black. Comparing this to the current 
demographic statistic from a 2019 (ISC)\2\ Cybersecurity Workforce 
Study on Women on Cybersecurity, women make up 24 percent of the 
cybersecurity workforce; therefore, partnering with community colleges 
to create a cybersecurity career pathway could help to diversify the 
cyber talent pipeline.
    There are great benefits to partnerships between community colleges 
and 4-year colleges that offer on-line education. Associate degrees are 
often great pathways to entry-level employment. Working adults can then 
often leverage their compensation from work and tuition assistance 
benefits from employers to further their education, and on-line models 
provide the flexibility required to continue education while working. 
Excelsior College partners with more than 100 community colleges across 
the United States with 26 of these partners designated as a Center of 
Academic Excellence for 2-year programs (CAE2Y). Excelsior works with 
community colleges to evaluate their programs for transfer credit into 
our Bachelor of Science in Cybersecurity program and help fill the 
growing need of cyber professionals. In addition, Excelsior provides 
peer mentoring for community colleges that are working to become a CAE.
                 fostering public/private partnerships
    In 2014, the Office of Personnel Management created the Federal 
Academic Alliance (FAA) to provide higher education opportunities to 
the Federal workforce at reduced tuition rates to address the 
Government-wide skills gap needs, including the shortages in 
cybersecurity. Today, OPM endorses 15 colleges and universities, and 
focuses on providing tuition support to Federal employees, and in many 
case, their partners and adult children.
    With the endorsement of the Chief Human Capital Officers (CHCO) 
Council, OPM began leading this effort to:
    1. Address current Federal-wide and agency-specific skills gaps,
    2. Support career development for Federal employees,
    3. Provide greater opportunities for Federal employees to obtain 
        college degrees, certificates, and/or college credits,
    4. Provide this opportunity with colleges and universities that 
        offer an on-line component to address our world-wide workforce,
    5. Provide current college students with a greater understanding of 
        the Federal Government.
    Colleges and universities that make up the FAA, such as Excelsior 
College, are vetted by OPM to ensure they meet mission-critical 
occupational needs; are in good standing; are not-for-profit; and are 
regionally accredited. Most FAA member institutions offer cybersecurity 
and/or information technology certificates and degrees (undergraduate 
and graduate) to help fill Federal skill gaps. Providing the additional 
option for certifications helps to support talent development and 
career advancement opportunities.
    educating students to prepare and protect our national critical 
                            infrastructures
    The number of cyber attacks targeting our Nation's critical 
infrastructures are on the rise. Specifically, in 2013, 59 percent of 
the attacks against our critical infrastructure were reported in the 
energy sector (ICS-CERT, 2013). A skilled and educated workforce is an 
essential component in improving the security posture of our critical 
infrastructure. The security program of the nuclear sector is regulated 
by the Federal Government with governance under the U.S. Nuclear 
Regulatory Commission (NRC). In addition to being competent in 
cybersecurity, professionals working in the nuclear and energy 
industries need to be aware of specific standards, requirements, and 
unique cyber threats.
    Excelsior College has a long history of meeting the educational 
needs of the nuclear workforce through innovative educational 
solutions. In 2014, a degree program was created to address 
cybersecurity challenges facing the nuclear industry. Cybersecurity 
professionals in the nuclear sector require a broad range of technical 
skills; however, few college programs currently exist at the 
baccalaureate level to assure that these professionals have the unique 
skill sets and knowledge domains needed to protect facilities and our 
National security. Additionally, the critical and practical nature of 
nuclear and energy sectors calls for enhanced simulation-based learning 
to be developed. Due to Excelsior's innovative program, in June 2018, 
Excelsior College received a Department of Energy Nuclear Energy 
University Programs (DOE-NEUP) grant to purchase a web-based 
pressurized water reactor simulator for use in the nuclear engineering 
technology program. The $250K grant provides funding to:
  <bullet> support plant simulation to enhance student achievement of 
        higher cognitive learning outcomes through ``learning by 
        doing,''
  <bullet> provide the ability to evaluate and analyze technical 
        information during ``dynamic'' situations
  <bullet> enhance our student's experiential learning activities, and 
        by doing so, enhance the student's ability to meet industry 
        needs
  <bullet> enable students to advance their understanding of key 
        theories and concepts in the nuclear technology field to better 
        protect against cyber threats.
    The value of Government funding to support the development of these 
lab-based activities means without such support, higher education 
institutions might not be able to adopt this important technology. 
Therefore, there is an increasing need to expand Government funding of 
experiential learning, especially in an on-line environment, where 
skills shortages in cybersecurity can only be filled by shifting people 
from one industry/occupation to cybersecurity fields.
    Excelsior works closely with RCNET (Regional Center for Nuclear 
Education and Training) to partner community colleges and corporations 
to further advance the integration of cybersecurity measures within the 
energy field with the support of the National Science Foundation's 
Advanced Technological Education (ATE) program. These programs 
implemented at the College directly address the President's Executive 
Order (EO) 13800 on Strengthening the Cybersecurity of Federal Networks 
and Critical Infrastructure as well as EO on America's Cybersecurity 
Workforce to identify and evaluate skills gaps for Federal and non-
Federal cybersecurity personnel with an emphasis on protecting our 
Nation's critical infrastructures.
                addressing k-12 cybersecurity education
    According to Education Superhighway's 2018 State of the States 
report, ``40.7 million more students have high-speed broadband in their 
classrooms.'' With more than 44 million students connected to the 
internet since 2013, this means ``98 percent of school districts can 
take advantage of digital learning.'' This is an impressive number for 
schools that can provide digital learning for their students in 
addition to integrating technology into the classroom as schools become 
increasingly reliant on technology and sophisticated IT systems for 
teaching, learning, and school operations. If you consider millions of 
mobile PCs (such as notebooks/Macs, netbooks, tablets, and Chromebooks) 
are being purchased by U.S. K-12 schools every year, think about the 
challenges these schools face trying to secure this infrastructure 
against cyber threats; a daunting prospect for any school district to 
counter. Programs to educate the K-12 ecosystem are important not only 
because there's a need to protect these resources, but also this 
demographic represents the next generation of cybersecurity 
professionals.
    One program addressing the K-12 population is the NSA/National 
Science Foundation (NSF) GenCyber Program. The GenCyber program 
provides summer cybersecurity camp experiences for students and 
teachers at the K-12 level. ``The goals of the program are to increase 
interest in cybersecurity careers and diversity in the cybersecurity 
workforce of the Nation, help all students understand correct and safe 
on-line behavior and how they can be good digital citizens, and improve 
teaching methods for delivery of cybersecurity content in K-12 
curricula. GenCyber is providing a solution to the Nation's shortfall 
of skilled cybersecurity professionals by ensuring that enough young 
people are inspired to direct their talents in this area, which is 
critical to the future of our country's National and economic security 
as we become even more reliant on cyber-based technology in every 
aspect of our daily lives.''
    In 2018, Excelsior College partnered with two Boards of Cooperative 
Education Services (BOCES) serving 46 districts with a combined 
population of more than 80,000 students throughout New York State's 
Capital Region to offer one teacher camp for middle and high school 
educators. The GenCyber $100K grant provided Excelsior College and 
BOCES an opportunity to offer the first GenCyber cybersecurity camp in 
the New York State Capital Region. The camp taught 30 middle and high 
school educators from different disciplines and diverse populations 
about foundational cybersecurity concepts. GenCyber programs support 
the President's EO on America's Cybersecurity Workforce on developing 
and implementing educational programs for K-12 which is proposing to 
reward an annual Presidential Cybersecurity Education Award to 
elementary and secondary school educators who best instill skills, 
knowledge, and passion with respect to cybersecurity and cybersecurity-
related subjects.
           expanding opportunities for experiential learning
    One of the keys to cybersecurity education is ensuring students are 
prepared upon graduation with practical, hands-on skills. Employers 
need employees with competencies that are directly related to the 
threats they encounter within their organizations. Opportunities for 
experiential learning allows the student to not only gain real-world 
experiences but also the ability to reflect on those experiences and 
build on their knowledge is important for reskilling/upskilling 
cybersecurity professionals. Some examples of experiential learning 
are:
Cyber Competitions/Capture-the-Flag (CTFs)/Cyber Ranges
    Cyber competitions originated from cyber defense exercises that 
were traditionally designed by the U.S. military service. Over the 
years, cyber competitions or CTFs have become increasingly popular for 
students to partake in to assess their competencies and skills. The 
challenges are designed to replicate the type of threats that are 
prevalent in the workplace and participants compete with other college 
teams to identify and capture flags within the exercises. Besides the 
hands-on experiences, students benefit from each other in acquiring the 
soft skills that are sometimes lacking in the technical arena, such as: 
Teamwork, leadership, communication, and problem solving which are all 
crucial skills to have in cybersecurity. The President's EO on 
America's Cybersecurity Workforce supports a plan to develop ``an 
annual cybersecurity competition (President's Cup Cybersecurity 
Competition) for Federal civilian and military employees. The goal of 
the competition shall be to identify, challenge, and reward the United 
States Government's best cybersecurity practitioners and teams across 
offensive and defensive cybersecurity disciplines.'' NCI, through our 
student chapter of the National Cybersecurity Student Association 
(NCSA), has sponsored Excelsior students for the past 4 years to 
compete in cyber competitions; which resulted in several of our teams 
placing among the top 100 National teams.
Apprenticeships/Internships/Work-Study
    While colleges and universities can and do infuse lab simulations, 
tabletop exercises, and case studies within their courses, internships 
(both virtual and in-person) provide opportunities for students to work 
within the contexts of the real world. As part of these programs, they 
can get first-hand experience with the issues facing business, 
Government, and nonprofits. This is particularly important for 
individuals looking to change their career to take advantage of 
opportunities in cybersecurity. At Excelsior College, we have worked on 
developing an option for students to complete an internship for credit. 
By participating in internships, students gain practical work 
experience that they can use to demonstrate their skills and potential 
to future employers. For employers hosting interns, there is a 
potential to increase capacity in the short term and build talent 
pipelines in the long run. The internship course at Excelsior College 
is a 15-week instructor-led course that runs simultaneous to the 
internship experience. Students are expected to spend 9 hours per week 
on their internship experience and work activities and write a weekly 
reflective journal about the applicability of the experience to their 
degree program and future career plans.
                               conclusion
    Mr. Chairman, in closing, there are several efforts that support 
growing and diversifying the cyber talent pipeline; however, we must be 
mindful of how those programs are executed to ensure equitable 
representation of women and minorities in the cybersecurity profession. 
As stated by Rick Ledgett, former deputy director of the National 
Security Agency, ``Getting more women and minorities into that cyber 
security workforce will be the key to addressing the current and 
expected labor shortfalls.''
    With a shortfall of approximately 500,000 North America-based 
cybersecurity jobs, as a society we should be using all resources at 
our disposal to provide career pathways to ensure these jobs are 
filled. For me, it starts with early education at the K-12 level where 
education can help protect key resources and we are able to build 
competencies in the next generation of cybersecurity professionals. It 
continues with partnerships across multiple sectors, where 
organizations can work together to expand the workforce. And it works 
best when we have identified the key competencies and skills required 
to protect our critical infrastructures specifically and our National 
security generally.
    Thank you for the opportunity to testify before you and the 
subcommittee, and I look forward to any questions you may have.

    Mr. Richmond. Thank you for your testimony. Thank you for 
your service. Let me apologize for calling you Ms. Estwick as 
opposed to Dr. Estwick. It was well-earned, and I should make 
sure that I call you by that title.
    We are going to stand in recess until we go vote. We will 
be back, hopefully, at somewhere around 15 minutes--on the 
worst side, maybe about 20, but it is Government, so who knows.
    We will stand adjourned--in recess. I am sorry.
    [Recess.]
    Mr. Richmond. We are going to call the subcommittee back to 
order, and we left off with Ms. Worley.
    If you will take the time to summarize your testimony in 5 
minutes, we appreciate it.

STATEMENT OF CANDACE WORLEY, VICE PRESIDENT AND CHIEF TECHNICAL 
                      STRATEGIST, MC AFEE

    Ms. Worley. Mr. Chairman, Ranking Member Katko, and Members 
of the subcommittee: Thank you for the opportunity to testify 
today. I am Candace Worley, vice president and chief technical 
strategist for McAfee, a device-to-cloud cybersecurity company.
    I am pleased to address the subcommittee on the need to 
grow and diversify the cybersecurity talent pipeline. It goes 
without saying that every cybersecurity organization, including 
Government, suffers from a shortage of cyber talent.
    No matter how committed we are to the cause of securing the 
digital world, we have to have enough people, we need to train 
enough people to fill these jobs.
    It is not just about filling security roles. There is an 
economic element to the cybersecurity challenge. McAfee worked 
with CSIS in 2018 to refresh a study that we initially did in 
2014 around the economics of cyber crime. That research showed 
that cyber crime is worth approximately $170 billion in GDP 
annually in North America and between $400- and $600 billion 
globally.
    If we can recapture even half of that money back into the 
positive side of our economy, that would be a huge growth 
engine for North American economy as well as the global 
economy. We will not be able to do that unless we have cyber 
professionals available and in organizations to help secure 
both Government and the private sector against those attacks.
    Today, I will make 5 recommendations for addressing the 
cybersecurity talent shortage challenge.
    First, we must increase the CyberCorps Scholarship for 
Service program, SFS, which is administrated through the 
National Science Foundation, and provides grants to 
approximately 70 institutions across the country, enabling 10 
to 12 students per institution to get those scholarships. After 
they graduate, these students go to work in the Government for 
at least the same amount of time as they receive support in 
their education.
    What we found is that they tend to remain in the Federal 
Government even longer. So this program is not only a great 
program for the student, it also enables the Federal Government 
to compete more readily with private industry for those 
employees. Because they are already employees of the Federal 
Government, they tend to stay longer.
    Since fiscal year 2018, the program's funding has remained 
flat at $55 million annually supporting these scholarships. 
That allows about 2,000 students to get scholarships. We are 
recommending that Congress should increase these, funds to 
around $200 million annually, which would enable about 6,400 
students to receive scholarships and continue to enable the 
Federal Government with cybersecurity talent.
    SFS should also be made available to more than just the 
current 70 land grant institutions. This stipulation is 
needlessly limiting, if we really want to increase the talent 
pool.
    Second, we must expand the SF program to community 
colleges, where approximately 57 percent of students are women 
and 41 percent are minorities. Additionally, many individuals, 
who are going back to retrain for a second or third career, 
choose a community college rather than a 4-year institution. 
That population has great experience that could be relevant in 
addition to the cybersecurity curriculum for filling open 
roles.
    Third, a strong cybersecurity operation requires different 
levels of skills. Not everyone needs a Ph.D. or a computer 
science degree to work in a security operations center. We, in 
industry, and Government, should be considering our hiring 
requirements, and opening those requirements up to people 
beyond those that just have a degree, for certificate and other 
training programs, can do the job just as well for many of the 
positions that are open. In fact, we may also contemplate other 
opportunity for vocational programs to be developed.
    Fourth, to ensure we are coming up with the most creative 
solutions possible to address current and future cybersecurity 
challenges, we must focus on a diverse pipeline of talent. We 
need people with diverse perspectives and capabilities who can 
think critically about the cybersecurity problems. That 
talented pool should be diversified from many perspectives. 
Certainly race, gender, experience, but also looking at people 
like gamers, veterans, retirees, who bring a unique set of 
experiences and capabilities to the discussion.
    Finally, we must develop creative approaches to enabling a 
public and private partnership, particularly during significant 
cybersecurity events where we need that collaboration in order 
to solve serious problems.
    We should design a mechanism for cyber professionals to 
move back and forth between the public and private sector so 
that Government organizations would have a continual refresh of 
expertise.
    The Executive Order on America's cybersecurity work force, 
issued earlier this month, is a good step in that direction. We 
also support wide-spread adoption of the Cybersecurity 
Workforce Framework developed by the National Initiatives for 
Cybersecurity Education.
    At McAfee, we are walking the walk when it comes to 
implementing solutions to increase diversity and inclusion 
among our ranks. We achieved pay parity, making McAfee the 
first pureplay cybersecurity company to do so. To recruit 
diverse talent, we ensure job descriptions have inclusive 
language, and recruiters understand diversity and value-based 
interviewing as an integral part of our process.
    We also invest in enabling our employees to take time to 
train local high schools and grade schools on an on-line safety 
program that we have developed targeting children so that they 
better understand the risks associated with the digital world.
    Feeding the pipeline with smart, talented, and diverse 
individuals is critical to developing and maintaining the next 
generation work force that will defend American companies and 
the Government from growing cyber threats.
    Thank you for your interest in this topic, and I will be 
happy to answer questions as it proceeds.
    [The prepared statement of Ms. Worley follows:]
                  Prepared Statement of Candace Worley
                              May 21, 2019
    Good afternoon, Chairman Richmond, Ranking Member Katko, and 
Members of the subcommittee. Thank you for the opportunity to testify 
today. I am Candace Worley, vice president and chief technical 
strategist of McAfee, LLC.
    I am pleased to address the subcommittee on the need to grow and 
diversify the cyber talent pipeline. My testimony will address the 
cybersecurity skills gap and workforce shortage, the need for 
investment in training programs and cross-training more cyber experts, 
the role the Federal Government can play to grow a diverse cyber 
workforce generation and how we can work together to address the 
challenges we currently face to diversify and grow the talent pipeline.
    First, I would like to provide some background on my experience and 
McAfee's commitment to cybersecurity and developing a diverse cyber 
workforce. At McAfee, I manage a world-wide team of technical 
strategists who drive thought leadership and advance technical 
innovation in McAfee security solutions. I have held a number of 
technology leadership positions, including 5\1/2\ years as the vice 
president and general manager of McAfee's Enterprise Endpoint Security 
business.
 mc afee's commitment to cybersecurity and growing the talent pipeline
    McAfee is the device-to-cloud cybersecurity company. Inspired by 
the power of working together, McAfee creates enterprise and consumer 
solutions that make our world a safer place for the benefit of all. Our 
holistic, automated, open security platform and cloud-first approach to 
building security solutions allow all security products to coexist, 
communicate, and share threat intelligence with each other anywhere in 
the digital landscape. Our customers range from Government agencies to 
all sizes of business to millions of home users.
    We and every other cybersecurity organization, including the 
Government, suffer from a shortage of talent. No matter how committed 
we are to the cause, if we want to truly make the world safer, we must 
train more people to fill the jobs that ensure our security.
                      the cybersecurity talent gap
    In 2016 the Center for Strategic and International Studies (CSIS) 
and McAfee undertook a study titled Hacking the Skills Shortage based 
on a global survey of IT professionals. Some of the findings about the 
cybersecurity talent gap include:
  <bullet> 82 percent of those surveyed reported a lack of 
        cybersecurity skills within their organization.
  <bullet> 71 percent agreed that the talent shortfall makes 
        organizations more vulnerable to attackers, and 25 percent say 
        that lack of sufficient cybersecurity staff has actually 
        contributed to data loss or theft and reputational damage.
  <bullet> 76 percent of respondents said their governments are not 
        investing enough in programs to help cultivate cybersecurity 
        talent and believe the laws and regulations for cybersecurity 
        in their country are inadequate.
    Since that study nearly 3 years ago, the numbers haven't improved. 
According to a recent (ISC) study, the global cybersecurity workforce 
shortage has reached 2.93 million professionals. The cybersecurity 
skills shortage is equally troublesome within the Federal Government.
    Given the vital role Government agencies such as the Departments of 
Defense, Homeland Security, as well as the intelligence agencies play 
in protecting the United States, policy makers must address the skills 
gap and work to reduce it.
Recent Administration Efforts
    The President's Executive Order on America's cybersecurity 
workforce, issued earlier this month, is a critical step toward helping 
solve the cybersecurity skills shortage. As a cybersecurity company, 
McAfee is a strong proponent of the wide-spread adoption of the 
cybersecurity workforce framework created by the Department of Homeland 
Security's (DHS) National Initiative for Cybersecurity Education (NICE) 
and supports the development of a rotational program for Federal 
employees to expand their cybersecurity expertise. McAfee has aligned 
the skills it seeks in candidates and its job requirements with the 
NICE guidelines.
    We are also encouraged by the creation of the President's Cup 
Cybersecurity Competition designed to reward top cyber performers. This 
program was modeled after successful private-sector initiatives and 
shows how cross-sector collaboration is essential to alleviating the 
cybersecurity workforce shortage. It is critical that we work to 
eliminate barriers for those entering the cybersecurity fields and 
increase educational opportunities to ensure talented people from 
diverse backgrounds can fill the growing IT and cybersecurity talent 
deficit.
    The administration's Executive Order is a step forward; however, it 
can't on its own solve the issue of a dwindling cybersecurity 
workforce. We have long advocated for eliminating barriers to entering 
the cybersecurity fields, and we encourage the Government to support 
programs that increase educational opportunities to ensure talented 
people from diverse backgrounds can join the growing cyber industry.
    Following are some recommendations for training and incentivizing 
more people to enter the cybersecurity field.
                            recommendations
Increase the NSF CyberCorps Scholarships for Service Program
    To grow the talent pipeline and close the cyber workforce gap, 
Congress should focus on expanding existing programs that train 
students in the fields valued by the cybersecurity industry.
    The CyberCorps Scholarship for Service (SFS) program is designed to 
increase and strengthen the cadre of Federal information assurance 
specialists that protect Government systems and networks. The program, 
administered through the National Science Foundation (NSF), provides 
grants to about 70 institutions across the country to offer 
scholarships to 10-12 full-time junior and senior college students 
each. With this structure, students are awarded free tuition for up to 
2 years in addition to annul stipends--$22,500 for undergraduates and 
$34,000 for graduate students. There are also allowances for health 
insurance, textbooks, and professional development.
    Upon completing their coursework in areas relevant to cybersecurity 
and a required internship, students earn their degrees and go on to 
work as security experts in a Government agency for at least the amount 
of time they have been supported by the program. After that, they can 
apply for jobs in the public or private sector.
    To date, the Federal Government has made a solid commitment to 
supporting the SFS program. The program was funded at $55 million in 
2019 and NSF is requesting the same amount for their 2020 budget. At a 
baseline, an investment of $50 million pays for roughly 2,000+ students 
to complete the scholarship program. We can do better!
    Given the substantial cyber skills deficit, policy makers should 
significantly increase the size of the program to the range of $200 
million. If this level of funding were appropriated, the program could 
support roughly 6,400 scholarships. This investment would make a dent 
in the Federal cyber skills deficit, estimated to be in the range of 
10,000 per year by Tony Scott, then Federal CIO, in 2015. 
Unfortunately, the 10,000-person talent deficit continues to exist 
today.
    At the same time, this level of investment could help create a new 
generation of Federal cyber professionals who could serve as positive 
role models for middle and high school students across the country to 
consider the benefits of a cyber career and Federal service. On a long-
term scale, this positive feedback loop of the SFS program might be its 
biggest contribution.
    While the CyberCorps SFS program is laudable, it is currently 
available only to 70 institutions--and all are land grant colleges. 
Current law limits SFS scholarships to research universities. This 
policy needlessly limits access to scholarships for qualified students 
from hundreds of universities and colleges around the country. In 
addition to expanding the funding, the scholarship program should be 
expanded to include other learning institutions, given the large number 
of talented and deserving students in our country.
Expand the NSF CyberCorps Scholarships for Service Program to Community 
        Colleges
    We should consider expanding--or creating a similar program--for 
community colleges. If we are going to close the cybersecurity talent 
gap across the country, we should focus resources on students pursuing 
associate degrees, which are valued in an industry that does not 
necessarily require a PhD or 4-year computer science degree. A strong 
security operation requires different levels of skills, and having a 
flexible scholarship program at a community college could benefit a 
wide variety of applicants while providing the profession with other 
types of necessary skills.
    Community colleges also attract different types of students than 4-
year institutions. Some are recent high school graduates, but many are 
working adults and returning students looking for a career change or 
valuable skills training.
    Recruiting from community colleges would further a diverse cyber 
workforce. Data shows that 57 percent of community college students are 
women and 41 percent are minorities. Additionally, community college 
tuition is more economical than a 4-year university. In-State community 
college tuition is about one-third the cost of in-State 4-year 
colleges, meaning the scholarship funds would go further with a program 
focused here.
    Such an expanded program, through a public-private partnership, 
could attract high school graduates who don't yet have specific career 
aspirations into focusing on cybersecurity. The Federal Government 
could fund all or part of the tuition remission for students, while 
private companies could help develop coursework in cybersecurity. 
Interested students would have the opportunity to learn from college 
faculty and private-sector practitioners.
    For example, an IT company could offer several faculty members or 
guest lecturers to participate during a semester. Students would 
receive free tuition--paid by a Federal program, perhaps with private-
sector contributions--but would not receive a stipend for living 
arrangements, as 4-year college students do in the CyberCorps program. 
Students would receive a 2-year certificate in cybersecurity that would 
be transferrable to a 4-year school. Like the CyberCorps program, 
graduates would spend the same amount of time as their scholarship 
period working in a guaranteed Government job.
    A program like this has the benefit of bringing in private-sector 
experts, interesting younger students who have not yet made a career 
commitment, interesting veterans, attracting a diverse range of 
students, and likely costing the Government less--once the start-up 
costs are accounted for. Such a program should not substitute but 
rather complement the existing, highly-valued CyberCorps SFS program.
    Furthermore, a candidate should not need to have a degree or 
certificate from a college to be a well-trained cybersecurity 
professional. Certificate programs provide valuable training, and there 
are increasingly more of these. In order to take advantage of these 
individuals, however, governments and businesses would have to change 
their hiring requirements. It is not necessary to have a college degree 
to work in cybersecurity, and requirements should be updated to reflect 
that.
Foster Diversity of Thinking, Recruiting, and Hiring
    Cybersecurity is one of the greatest technical challenges of our 
time, and we need to be as creative as possible to meet it. In addition 
to continually advancing technology, we need to identify people from 
diverse backgrounds--and not just in the standard sense of the term. We 
absolutely need to diversify the talent pool in terms of race, 
ethnicity, gender, and age, all of which lead to creating an inclusive 
team that will deliver better results. Research on large, innovative 
organizations has shown that gender and racial diversity improves 
organizations' financial performance. The title of this article in 
Scientific American States the case well: How Diversity Makes Us 
Smarter: Being around people who are different from us makes us more 
creative, more diligent and harder working. McAfee believes we need to 
focus on hiring a diverse workforce, which will in turn make us an even 
stronger company.
    There are, however, additional ways to diversify our talent pool. 
We should seek out gamers, veterans, people working on technical 
certificates, retirees from computing and other fields such as 
psychology, liberal arts as well as engineering. There is no one 
background required to be a cybersecurity professional. Of course we 
need people with deep technical skills, but we also need teams with 
diverse perspectives and capabilities.
    Cyber attacks are diverse and complex, ranging in scope from 
organized crime to recreational vandalism to hacktivism to State-
sponsored initiatives. Orchestrating a robust cyber defense requires a 
breadth and depth of backgrounds, skills, and experiences to respond to 
and mitigate innumerable threats, many of which haven't even been 
invented yet.
    When looking for cybersecurity talent, it's easy to ask, ``What 
degrees are needed?'' or ``What certifications should be required?'' 
But cyber moves quickly; we need people who can think and move quickly 
with it. McAfee's CTO Steve Grobman once said, ``Computer Science is a 
great field for people who hate to be bored.'' Degrees and 
certifications are a great way to demonstrate current knowledge. Yet 
when I'm hiring, I care less about what you know now than what you have 
the capacity to understand and respond to 2, 3, or 5 years from now. 
Technology will change, the infrastructure will change, but the need to 
think critically and respond to a variety of challenges will not 
change. Complexity will only increase, and we need cybersecurity 
professionals who will evolve with it.
Public-Private Sector Cross-Pollination
    We also must develop creative approaches to enabling the public and 
private sectors to share talent, particularly during significant 
cybersecurity events. We know that the adversary is constantly 
innovating and changing course, often reacting to new defensive 
capabilities the private sector develops. It's unrealistic to think 
that Government cyber practitioners would be able to keep up with such 
a rapidly evolving environment without private-sector assistance. We 
should design a mechanism for cyber professionals--particularly 
analysts or those who are training to become analysts--to move back and 
forth between the public and private sector so that Government 
organizations would have a continual refresh of expertise.
    One way to accomplish this would be for DHS to partner with 
companies and other organizations such as universities to staff a cadre 
of cybersecurity professionals--operators, analysts, and researchers--
who are credentialed to move freely between public and private-sector 
service. These professionals, particularly those in the private sector, 
could be on call to help an impacted entity and the Government respond 
to a major attack in a timely way.
    Both Government and private-sector cybersecurity professionals 
would benefit from regular job rotations of possibly 2 to 3 weeks each 
year. This type of cross-pollination would help everyone share best 
practices on technology, business processes, and people management. DHS 
should include a flexible, public-private pool of certified 
professionals in its plan to rewrite its cybersecurity hiring and 
retention plan. If DHS is not ready to act, Congress should establish a 
blue-ribbon panel of public and private-sector experts to study how a 
flexible cadre of cybersecurity professionals could be started and 
managed. Much like the National Guard, a flexible staffing approach to 
closing the skills could become a model of excellence.
             how technology can help alleviate the problem
    Even though we should work hard and think creatively to fill it, 
the cyber skills gap won't be closed any time soon. In the mean time, 
we must rely on technology more and more.
Human-Machine Teaming
    One strategy for addressing the cybersecurity skills deficit is to 
use automation--through such solutions as machine learning and 
artificial intelligence. Legacy IT systems, however--like many of those 
in the Federal Government--lack the ability to take advantage of the 
most contemporary security architectures and development techniques. 
While it is possible to isolate or wrap security around a legacy 
system, the approach is far inferior to a well-designed secure 
implementation designed for the security challenges of 2019 and beyond.
    This speaks to the need for investments in IT modernization and 
modern cybersecurity solutions, which an earlier Executive Order 
addressed. We support these much-needed policy changes, which will 
allow for better use of automation, or machine learning.
    The ideal situation for now is what McAfee calls human-machine 
teaming. This means taking advantage of the particular strengths of 
each. Machine learning can save security teams both time and energy, as 
it is the fastest way to identify new attacks and push that information 
to endpoint security platforms. Machines are excellent at repetitive 
tasks, such as making calculations across broad swaths of data. That's 
one of the strengths of machine learning: Its ability to crunch big 
data sets and draw statistical inferences based on that data, detecting 
patterns hidden in the data at rapid speed.
    Humans, on the other hand, are best at insight and analysis. With 
the assistance of machine learning, human analysts can devise new 
defenses quickly, adapting to attackers' automated processes and 
limiting their effectiveness. The human intellect is capable of 
thinking like an adversary and understanding a scenario that might 
never have been executed in any environment previously. Machines can 
take over some simple processes--automating them so the humans can be 
free to understand context and implication, such as why a bad actor 
might want to attack a Government agency.
             mc afee's commitment to closing the skills gap
    While we recognize there is still more to do, we're proud to 
describe the strides we're making at McAfee. We believe we have a 
responsibility to our employees, customers, and communities to ensure 
our workplace reflects the world in which we live. Having a diverse, 
inclusive workforce is the right thing to do, and after we became an 
independent, stand-alone cybersecurity company in 2017, we made and 
have kept this a priority.
    At McAfee, we're walking the walk when it comes to implementing 
solutions to increase diversity and inclusion among our ranks. This 
business model is essential to the cybersecurity industry's success. 
Studies show time and again that diverse perspectives and human 
experiences lead to more creative approaches to solving challenges, and 
we know that inclusive teams deliver better results.
Pay Parity
    Our most recent accomplishment was to audit our global employee 
base to look into pay parity. In April 2019 we achieved pay parity, 
making McAfee the first pureplay cybersecurity company to do so. It 
required an investment of $4 million to make salary adjustments on 
April 1. We'll continue to adjust the pay gap and uphold pay parity 
with annual analysis.
Holding Ourselves Accountable
    In 2018, our first year as an independent company, we released our 
first Inclusion and Diversity Report. The report demonstrates our 
commitment to building a better workplace and community. Highlights 
include:
  <bullet> In 2018, 27.1 percent of all global hires were female and 13 
        percent of all U.S. hires were underrepresented minorities.
  <bullet> In June 2018, we launched our ``Return to Workplace'' 
        program for men and women who have paused their career to raise 
        children, care for loved ones, or serve their country. The 12-
        week program offers the opportunity to reenter the tech space 
        with the support and resources needed to successfully relaunch 
        careers. As a result, 80 percent of program participants were 
        offered a full-time position at McAfee.
  <bullet> Last year, we established the Diversity & Culture Council, a 
        volunteer-led global initiative focused on creating an 
        infrastructure for the development and maintenance of an 
        integrated strategy for diversity and workplace culture. 
        Council responsibilities include implementing a company-wide 
        inclusive culture by supporting diversity goals, providing a 
        platform for open and efficient employee feedback, and enabling 
        best-practice sharing from local sites on company initiatives.
  <bullet> McAfee CEO Chris Young joined CEO Action for Diversity 
        Inclusion, the largest group of CEOs and presidents committed 
        to act on driving an inclusive workforce. By taking part in CEO 
        Action, Young personally commits to advancing diversity and 
        inclusion with the coalition's three-pronged approach of 
        fostering safe workplaces:
    <bullet> Create and maintain trusting workplace environments that 
            support open dialog,
    <bullet> Share best practices and lessons from unsuccessful 
            practices for others to learn from,
    <bullet> Implement and expand unconscious bias education.
    When hiring new talent, we keep to these principles:
  <bullet> Inclusive language in job descriptions.--We leverage tools 
        to better understand the impact of our language in job 
        descriptions. After analysis, we made alterations that now 
        offer gender-neutral language that speaks to all candidates.
  <bullet> Recruiters who know diversity.--Our dedicated team of 
        trained recruiters know where to show up and more importantly, 
        how to show up, to recruiting events. In 2018, we expanded our 
        team focused on diverse hiring to bring top talent into our 
        pipeline.
  <bullet> Values-based behavioral interviewing.--All recruiters and 
        hiring managers are trained to use our values-based behavioral 
        interview approach, which encourages interviewers to ask 
        questions related to our values, resulting in more meaningful 
        interactions.
  <bullet> Diverse representation on hiring panels.--We have trained 
        more than 60 female employees in values-based behavioral 
        interviewing, and we leverage them across the globe to ensure 
        diverse representation on each interview panel.
  <bullet> Referral bonuses for diverse hires.--In 2018, we launched a 
        global referral bonuses for hires of female employees into the 
        Sales organization. As a result, our Sales organization 
        experienced a 131 percent increase in new female hires.
  <bullet> Outreach at conferences and events.--In 2019, we plan to 
        continue our investment in events that focus on diversity and 
        will hone our approach, so we attend fewer, more strategic 
        events and build stronger relationships.
Investing in the Next Generation Workforce
    Investing in a diverse pipeline is essential to the development of 
a strong cyber workforce for the future. McAfee is proud to support the 
community to establish programs that provide skills to help build the 
STEM pipeline, fill related job openings, and close gender and 
diversity gaps. These programs include an On-line Safety Program, on-
site training programs, and internships for high school students. Our 
employees also volunteer in schools help educate students on both 
cybersecurity risks and opportunities. Through volunteer-run programs 
across the globe, McAfee has educated more than 500,000 children to 
date.
    As part of the McAfee's new pilot Achievement & Excellence in STEM 
Scholarship program, McAfee will make 3 awards of $10,000 for the 2019-
2020 school year. Twelve students from each of the 3 partner schools 
will be invited to apply, in coordination with each partner 
institution's respective college advisor. Target students are college-
bound, high school seniors with demonstrated passion for STEM fields, 
who are seeking a future in a STEM-related path. This type of a program 
can easily be replicated by other companies and used to support the 
growth and expansion of the workforce.
                  next steps to address the challenges
    Finally, I would like to stress the importance of allocating time 
for advocacy by current cyber professionals to recruit and retain the 
next generation. As a woman in tech, I know first-hand the pressure to 
prove yourself--not only for your own career success, but as a 
representative of your culture or gender. It can be extremely difficult 
to deliver excellence in your day job and carve out time to engage and 
lift up the next generation. If we are going to inspire and empower a 
new and diverse corps of cybersecurity professionals, we must 
prioritize time for current role models to advocate, inspire, and 
recruit.
    McAfee strongly recommends that any future initiative include 
commitments by industry to provide diverse technical professionals--not 
only by gender and race, but skillset and experience--to teach and 
mentor. We also recommend that students accepted into a CyberCorps 
program spend time teaching cyber safety to America's K-12 youth. When 
we build an entire continuum--each stage of cybersecurity experts 
uplifting and empowering the generation after it--then we will truly, 
systemically achieve our National objective.
                               conclusion
    It has been an honor to appear before this distinguished panel of 
policy makers. Thank you, Chairman Richmond and Ranking Member Katko, 
for your dedication to growing and diversifying the cybersecurity 
workforce. Feeding the pipeline with smart, talented, and diverse 
individuals is critical to developing and maintaining the next 
generation workforce that will defend American companies and the 
Government from growing cyber threats. The future of cybersecurity can 
be bright, if we're able to harness the potential of all people to 
create a growing and diverse talent pipeline.
    In the near future, I hope that we think of cyber as one of the 
most diverse fields of people and skill sets who will meet the 
challenges of protecting public and private-sector institutions from an 
array of cybersecurity threats. We should increase the NSF CyberCorps 
Scholarships for Service Program to include more students, encourage 
students from community colleges to pursue careers in cyber, and focus 
on diversity and inclusion in the pipeline.
    Thank you, and I'll be happy to answer any of your questions.

    Mr. Richmond. I want to thank all of the witnesses for 
their testimony. I will remind each Member that he or she will 
have 5 minutes to question the panel.
    I will recognize myself. I will yield it to Ms. Slotkin. 
Other than that, we may not have the time to get you in and out 
of here. So I will yield my time to Ms. Slotkin.
    Ms. Slotkin. Thank you, Mr. Chairman.
    So I am from Michigan, and in my district, we have this 
fantastic cybersecurity program at one of our local high 
schools. I went and visited there. So young people are 
literally starting to learn to code and to do all of the sort-
of training for cybersecurity experts. They are being recruited 
straight out of college, right? Some of them are being asked to 
forego any higher education just because we are so desperate in 
Michigan for cybersecurity talent.
    So tell me what more we can be doing, particularly in rural 
areas, right. The high school I am talking about is a rural 
school, and it has been a fantastic program for us.
    Tell me what I can do if I have rural schools who want 
their kids to go into this desperately-needed job, but they 
just don't know where to look first?
    Mr. Gallot. Well, I guess I will just jump in real quick.
    I think creating partnerships and pipelines within 
education is a key. One of the things that we do in--in 
Louisiana, we have got Bossier Parish Community College that 
provides an associate's degree. Grambling will have the 
bachelor's degree; Louisiana Tech, 5 miles down the road, has a 
master's program.
    So creating the pipeline from that high school to either a 
community or junior college and then to university, I think, is 
something that has worked for us. When you think about the 
support we provide at Cyber Innovation Center, Barksdale Air 
Force Base in Bossier City, and the other private companies in 
that area, I think creates a good pipeline and a diverse 
pipeline of cybersecurity workers.
    Ms. Slotkin. I apologize. We mentioned this when I wasn't 
here. But, you know, we have experience, particularly in the 
U.S. military, with saying certain career fields are really in 
desperate need, and we have incentives for people to join the 
military, they have special skills, like if they speak Chinese 
or Russian.
    Can you tell me what you would do to incentivize, 
particularly the military and Government agencies, since we 
often lose out to private sector who pay better?
    Mr. Simpson. Sure. I will jump in here on this one. So 
there are a lot of great transitioning veteran programs out 
there. So there are a number of States that we currently work 
with at (ISC)\2\, that we work with that are funded by the 
actual State for transitioning veterans.
    So there is programs already set up, they are already in 
place. They are very, very successful----
    Ms. Slotkin. Sorry. Just because I have a short time, not 
to help the veterans when they get out, because I have 
certainly seen a lot, but to get them in--like to get them in 
the uniformed military, to get them in the Federal agencies, 
since cybersecurity is going to be the battlefield of the 
future, and we don't pay as much--I am a former Federal 
Government employee. We don't pay as much as the private sector 
for a cybersecurity professional. What should we be doing in 
the Federal Government to incentivize getting people in rather 
than when they are done? Helping them out?
    Ms. Worley. Certainly on the topic of getting them in the 
Federal Government versus the services themselves, I think the 
SFS program is a great way to do that. Continuing to fund that 
program to a greater degree, where I give you 2 years of 
college, you give me 2 years of service in the Federal 
Government, right? Now you have them working in the Federal 
Government, they understand that mission, they get a feel for 
what it is like to work in Government. We saw some stats at 
about 70 percent of those who go into the Federal Government in 
that program stay for at least a year longer.
    So I think the program that you currently have in place is 
actually serving that goal pretty well. On the front of 
military, I think that may be a more difficult challenge. But 
certainly, I think, this program is helping you at the Federal 
level.
    Ms. Slotkin. Thank you.
    Mr. Chairman, I yield back.
    Mr. Richmond. Ms. Estwick, did you----
    Ms. Estwick. No, that is OK. No. So I just wanted to add 
one thing about earlier when you talked about the K-12. So I 
don't know if you are familiar with the NSA, National Security 
Agency, National Science Foundation's GenCyber program. That is 
a program that has been around for about, I want to say, 5 to 6 
years now.
    They do K-12 camps, student camps, and teacher camps, and 
they award various organizations--you can be a nonprofit and 
schools--Excelsior College, we were actually awarded a grant 
last year, and we held a cybersecurity camp for middle and high 
school teachers in the New York State capital region. What that 
does, they have goals in mind, of course, to increase interest 
in cybersecurity, but other goals, of course, is to diversify 
the work force.
    There is just--just a host of opportunities there for kids. 
Exposure is the thing, right? So you want to make sure you get 
as much exposure. Of course, there is cyber competitions as 
well, cyber patriot programs and things like that as well.
    Ms. Slotkin. Thank you.
    Mr. Richmond. The gentlelady yields back.
    I now recognize the gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    I want to start with Ms. Worley, but actually this question 
applies to everybody.
    I think the National Science Foundation CyberCorps 
scholarships are a great place to start, because they have a 
time commitment after they get the scholarship.
    Are any of you aware of any problems with implementing, or 
getting enough professors involved, or enough universities 
involved? Is anybody aware of any problems with that part of 
it?
    Ms. Worley. So what I would say is that I see an increased 
number of educational institutions, certainly at both the--the 
university as well as the community college level, who are 
beginning to implement cybersecurity programs, either as an 
augmentation to existing computer science and engineering 
programs, or as a pure cybersecurity program. So I am certainly 
seeing increased interest in availability, but I am sure other 
folks----
    Mr. Katko. I guess my question is really focused that--
there is requirements that go along with these programs. Some 
universities either aren't capable of reaching the requirements 
or have the desire to. Have any of you heard of that issue 
before, any of that problem?
    Ms. Worley. I have not.
    Mr. Katko. Dr. Estwick.
    Ms. Estwick. So I would say there has been a little bit of 
a bottleneck in getting faculty members to teach in 
cybersecurity.
    Mr. Katko. Tell me about that. Why?
    Ms. Estwick. We have been lucky enough to pull from private 
industry to have some adjunct faculty. But I would say, across 
the board--like computer science programs are having the same 
issues, actually. A lot of the companies--like she said, 
cybersecurities align and synergize a lot with the computer 
science programs.
    So, for now, yes, I think this is where private industry 
and those, of course, coming from Government, can help step up 
and fill some of these faculty positions.
    Mr. Katko. So that--filling faculty positions will help us 
utilize a program we have now, because I think it is a terrific 
idea. I am not speaking for the Chairman, but I think he 
agrees--actually then, I am speaking for him. We both think 
that plussing up this program would be a very good place to 
start. We have to make sure that the universities are prepared 
to implement the program.
    So, if there is changes that any of you think need to be 
done with the criteria so that we can make it more easy for 
these universities to get involved with these programs and get 
these kids these scholarships, please make sure you let us 
know, OK,
    Ms. Estwick. Yes.
    Mr. Katko. Thank you very much.
    Now, is it--we have had a lot of testimony from all of you 
today. I just want to hear kind of some spit-balling here.
    What other ways that we can do other than what you have 
heard--you know, you have heard from Ms. Worley and the others. 
Is there something else, for example, Mr. Simpson or Mr. 
Gallot, that we can do to increase, at the college level, and 
get kids in? That is No. 1.
    No. 2, if you want to add to it, do they always--do they 
have to have a college degree to do these programs? Because I 
think that they don't, and I would like to hear about that as 
well.
    Mr. Simpson. That is an excellent question. Thank you very 
much for asking.
    Let me first start for the first part of the question. I 
think if you are targeting college, you are too late. The 
majority of students choose their careers in high school. So in 
high school, we need to start sending that message of why 
cybersecurity is a great career, and why they need to get into 
it.
    So when they go to college, if they choose to go to 
college, they can plan those curriculums and those degrees that 
align with that profession of cybersecurity that they want to 
get into.
    Not all people go to college, though, so we understand 
that. That is the great relationship that academic colleges, as 
well as the certification and certificate organizations play, 
is that there is room for all of us, and that there is no one 
way to get into cybersecurity. There is multiple ways to get 
in.
    People learn differently. There is nothing wrong with going 
through a hands-on technical program, certificate program, or 
certification program, or going through an advanced degree. It 
just depends on that individual. The most important thing is 
that they are going into cybersecurity and we help outline the 
different pathways and that journey map and that career map of 
how they can get into it.
    Mr. Katko. Now, the NSF scholarships, that applies strictly 
to universities, does it not? I mean, should it be expanded to 
apply also to certificate programs as a way of incentivizing 
kids to get into it?
    Mr. Simpson. For us, absolutely. So when you look at how 
people are getting into cybersecurity, whether it is through 
certificates, certifications, or through education, 
scholarships play a huge path for that. Especially for those 
folks that can't afford it. You start looking at some of these 
demographics in these areas, and then these individuals, they 
can't afford to go to college, they can't even afford some of 
these certifications.
    The more we can infuse these programs of being able to cast 
a wider net and apply to a greater amount of students, that is 
how you are going to help with some of that inflow.
    Mr. Katko. Go ahead, Mr. Gallot.
    Mr. Gallot. Thank you, Mr. Katko, for that----
    Mr. Katko. By the way, I absolutely love your band at that 
university. Every time I see them on TV, I just stop what I am 
doing and watch. They just ooze talent, confidence, and fun. It 
is just a blast to watch them.
    Mr. Gallot. Thank you so much. We have a number of computer 
science graduates--computer science students in the band.
    Mr. Katko. I bet.
    Mr. Gallot. You know, quite honestly, you know, it is 
difficult enough for minority candidates in applying for jobs. 
For our graduates, I think, they are better prepared, both from 
a knowledge base, but also a maturity base, when they are going 
to either Government or the private sector applying for jobs.
    So for a black student who is going and applying for a job, 
I think he or she stands a better chance of being seriously 
considered for that job if they have a degree. You know, that 
is part of the reality of the environment that we live in.
    So, you know, certainly, I respect the fact that we have 
different entry points for different individuals. Ms. Worley, I 
think, did an excellent job of talking about the different 
needs that can be fit by some who have college degrees or not.
    But our society now, I think, requires the students that I 
serve, they are much better prepared to go in and actually land 
that job with a degree as opposed to not having it.
    Mr. Katko. Thank you very much.
    Last, I will just note, Mr. Chairman, perhaps we should 
consider when we are looking at the funding for the CyberCorps 
to make it more wide-spread for certificate schools, but also 
at the high school level, so kids who want to take college 
courses in high school might be able to have scholarship 
opportunities available for them. Then that gets them into the 
pipeline before they are out of high school.
    I yield back.
    Mr. Richmond. The gentleman from New York yields back. Now 
we will have the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing. I want to thank our witnesses for 
your testimony. You have all had important things to say about 
the cyber work force, something that I have been worried about 
for quite some time. This is an issue that I have been working 
on now for more than--more than a decade.
    We often hear about the challenges in--in cyber and, you 
know, how does the, for example, the Federal Government compete 
and attract, and also retain people with the right cyber 
skills? I think that is the wrong focus to say how do we 
compete per se. It is really how do we grow the pie. So that is 
what we really need to focus on, so that we are not trying to 
compete or take from the private sector, but again we are 
growing the size of the pie so there are more people available 
to fill these jobs that are necessary.
    There are hundreds of thousands of cybersecurity jobs right 
now that go unfilled every year. That number is going to grow 
exponentially. We are probably looking into the millions 
several years out, as the cybersecurity challenges continue to 
grow.
    So, you know, Mr. Simpson, I think you had some important 
things to say, too, about getting--how do we attract the kids 
at even younger ages and start thinking about a job in this 
field?
    Certainly, I support the Scholarship for Service program. I 
led a letter to appropriators again this year asking for 
increased funding for the Scholarship for Service program. I 
think CyberCorps, it is a wonderful program, and anything we 
can do to grow or replicate those types of programs, we need to 
do that.
    How do we create a program that talks to the--speaks to the 
kids at the high school level, so that they are thinking about 
that as a career? I think that we need a sort-of a--a program 
model so the Scholarship for Service program that we are--that 
we are reaching out to kids that are in college, right, now we 
can replicate that if we start talking to kids at the freshman, 
sophomore year, and saying the junior year, getting ready to go 
off to college, that you go into a cybersecurity field in a 
Scholarship for Service-type of program, your college in your--
your freshman and sophomore year will be paid for, in a similar 
way, perhaps, that the junior and senior year will be paid for 
if you are in the Scholarship for Service program.
    So have you thought about those types--how we can partner 
with the private sector and the Federal Government can go in 
that direction so that kids, as they are thinking about a 
career in cyber--or we get them thinking about a career in 
cyber, and they are starting to think about it in their high 
school years?
    Mr. Simpson. Yes. Thank you for your question, sir.
    It all starts with the awareness to the individual. So the 
kids today, they are not aware. When you look at the--the 
amount of, you know, Gen X and baby boomers that are about to 
retire over the next 5 to 10 years, there is not a wave of army 
that is coming over to help backfill them. So we have got to 
get into the school systems at a much earlier learning area to 
start to teach them. You have got to do that through 
investment.
    Invest into the students, invest into the learnings, so on 
the back end, as they are going through middle school and high 
school, they are already aware, they have already got 
curriculum that has been put in there by the State into the 
schools. The broader that net that you can get across all of 
the--all of the schools within each State's district is going 
to start to yield that value as they transition, whether they 
go on to college, into a cyber career, whether it is through 
STEM or through STEAM or through certificates or 
certifications.
    But bringing that technical, hands-on training, exposure at 
the high school level, is how you start to plant those seeds. 
It has got to be done through investment into those school 
systems and into the children.
    Ms. Worley. Yes, I think there is--excuse me, Mr. 
Congressman. I think there is another opportunity, and that is, 
I think we often forget that high school kids are probably as 
digitally savvy as most 4-year graduates were 10 or 15 years 
ago. I mean, they are digital natives. They can code at, you 
know, junior high, maybe earlier, in many cases. So there is 
probably opportunity where Government and private industry 
could partner together around internships at the high school 
level.
    Often internships are something that is reserved for 
college, right? You get an internship once you get to college. 
We have got savvy high school students who are very capable, 
you know, from a cyber perspective. We should be looking at how 
we can partner together from a private and public perspective 
to create internship programs for those high school students.
    You get them into a research facility with a bunch of cyber 
tech researchers, believe me they are going to get excited 
about this field, right?
    I mean, you know, when they start looking at what they will 
get to do and the implications of that, we will get them 
excited. But I think there is an opportunity for us to partner 
that way.
    Mr. Langevin. I know my time as expired.
    But, you know, you are right on point. When they can do 
more hands-on learning, I think that is the better--so I--I 
agree also with what you had to say. I hope you don't--it is 
not necessary that you need a Ph.D. right away to start going 
into the cyber field. We also need to include certification 
programs so that they can get the entry-level jobs in 
cybersecurity, even as they pursue other academic opportunities 
in either a junior college or a 4-year degree.
    So thank you, Mr. Chairman. I could go on and on, but my 
time is gone. I will yield back.
    Mr. Richmond. The gentleman from Rhode Island, Mr. 
Langevin, yields back.
    The gentleman from Texas, Mr. Taylor, is recognized for 5 
minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    I appreciate being here.
    So just to kind-of expand on this. So as I understand the 
current program, it is for--it is at 68 4-year universities, so 
it is for a 4-year college degree, right? Is that basically how 
it works out?
    So--and I just going back to saying we need more children 
to learn in high school. They need an associate's degree, maybe 
some community college, maybe some Ph.D. Is it a program that 
we should expand out in terms of, you know--you know, being 
thoughtful that, hey, sometimes it takes a Ph.D., sometimes it 
takes a college degree, sometimes it takes an associate's 
degree, sometimes it just takes a really sharp high school kid 
who has had 1 year of coding in high school so that we are 
looking at this in a kind-of a holistic level, because it is 
not just one entry point, like: Hey, this is the only thing you 
need. Like, we don't need any Ph.D.s or--am I thinking about 
that right, is it expanding this out?
    Ms. Worley, since you are----
    Mr. Gallot. Congressman, I guess, part of what you--what I 
am here to talk about in terms of creating a diverse, you know, 
pipeline of cyber talent--and I think more globally, I think 
you make an excellent point. But specifically, what is it--what 
is that barrier that stands between this minority student and 
the cyber work force, and how--how do we bridge that--that gap, 
which I think is the part that we have to--and if you look at, 
again, the students that we typically serve, many of them are 
still first generation college students.
    Trust me, they--they find a way to figure it out. You know, 
not that everybody graduates from Morehouse and gets their 
student loans paid off. Some of our students, you know, 
actually work 3 jobs and figure out, like Jarrid Richards did, 
how to be an A and B student and get closer to that degree.
    So I think part of it is resource and capacity to give us 
the opportunity to open this up to the students that--and the 
work force that I think the committee is here to talk about and 
address, and that is, how do we provide more access and 
resources, either through NSF or other agencies that you-all 
have that give us more capacity to provide access to the 
diversity that I think everyone is looking for?
    Mr. Taylor. Ms. Worley, just going to you as an employer, 
right? So you are employing, you know, in my district, but also 
around the country, many thousands of people who are in this 
space. I mean, as we discussed before, I mean, you are hiring 
Ph.D.s and college graduates and associates--I mean, you have 
hiring all levels, right? Is that a fair statement?
    Ms. Worley. In fact, there is a number of engineers in the 
office that I work in that do not have a college degree, but 
they are brilliant coders.
    Mr. Taylor. Right.
    Ms. Worley. So, you know, I fundamentally believe in 
education. I worked my way through college as well. I paid for 
both my undergraduate and graduate degree, you know, cocktail 
waitressing, waitressing, cooking, whatever it took. So I 
understand that 4-year degree and the importance of that.
    But there is also a population in our work force today that 
maybe has, you know, 20 years of experience in a job doing data 
analysis, but they have never worked in cybersecurity. But 
believe me, that data analysis experience they have would be 
outstanding as an incident responder in a cybersecurity 
operations center.
    We need to look at the requirements, not just the hard-
coded requirements of working in cybersecurity. What are the 
skill sets we need--critical thinking, problem-solving 
analytics that apply? And then create programs, whether those 
are through certification programs, vocational programs, a 
community college program that allow them to take the skills 
they already have and translate them into the language of 
cybersecurity. That doesn't necessarily take the 4-year degree.
    If I am fresh out of high school, that 4-year degree 
probably is going to be really important. If I am an 
experienced person, maybe less important.
    Mr. Taylor. Sure. I know in my own State of Texas, we are 
at about 24 percent of our population has a 4-year college 
degree. We are trying to get to the National average, which is 
27 percent. In that effort, we are actually not leaving anybody 
behind. We are actually--we have implemented a 60/30 plan to 
try to get 60 percent of the population by 2030 to have some 
kind of post-high school degree or certification, right? 
Whether it is a welding certificate or an associate's degree or 
a 4-year college degree.
    But it seems in this space, the requirements are such that 
if you focus only on the college degree, you are missing key 
pieces under and below that you have got to have in order to 
have an effective work force.
    Ms. Worley. Furthermore, given where we stand right now, if 
we rely solely on 4-year degrees, we will never catch up. We 
have to look at creative ways to educate people with 
experience, to educate people with core capabilities in this 
space, and we still need lots of college graduates. There is no 
doubt of that, because if you start looking at things like data 
science around artificial intelligence, that requires 
education. But we should not bypass a lot of those other 
individuals that have core capabilities relevant to this field 
because they simply don't have a degree. We should enable them 
to move forward into the field.
    Mr. Taylor. Right. I should point out that an associate's 
degree could be on the way to getting a college degree, right? 
So you encourage somebody to get an associate's degree, they 
work for a couple of years, and they say, you know what? I am 
going to go back, and I am going to finish up my bachelor's 
degree.
    Ms. Worley. Absolutely.
    Mr. Taylor. I am out of time. Mr. Chair, I yield back.
    Mr. Richmond. The gentleman from Texas, Mr. Taylor, yields 
back.
    The gentlewoman from New York, Miss Rice, is recognized for 
5 minutes.
    Miss Rice. Thank you so much, Mr. Chairman.
    You know, what I am hearing here today is very encouraging. 
I think that what I would love for the Chairman and the Ranking 
Member on this committee to do is to put together all of these 
parts, right? We have educators, we have the private sector who 
needs to employ people, and we have Government that has a 
vested interest in educating and training a work force for the 
future.
    I think people fall into two categories: You have those 
heading into college or who are already in college. I was just 
at my nephew's graduation at Catholic University, my alma 
mater. I said, Thank God he went into business, because maybe 
he has a chance of getting a job when he graduates. So we have 
that whole universe. How do we get qualified teachers at the 
high school level? Maybe--I am just going to throw a bunch of 
questions out, and whomever thinks they can answer them, answer 
them.
    But we need to have faculty in high schools, grammar 
schools and high schools, that are up-to-date on IT issues and 
cyber issues, so we can get kids interested at a high school 
level. You know--and I think that is where you increase the 
chances of diversity going forward.
    But we also have a large number of people in this country 
who got a degree that maybe cannot help them get a job. I mean, 
every time you talk to people who are based in Silicon Valley, 
they say we have millions of jobs that we cannot fill because 
we do not have a trained work force in this country.
    So do we partner together--there are three legs to this 
stool. We need educators, we need the Government, and we need 
private business. Everyone has a vested interest in coming up 
with a system that will work.
    Now, the reason why I think it is important to go in at a 
high school level is because there is still out there that 
sentiment that I need to get a 4-year degree. No offense to 
anyone who heads universities that offer 4-year degrees. That 
is not true. Maybe an associate's degree is OK; maybe you just 
need to go to vocational training. But there still seems to me 
to be somewhat of a stigma, right, around not going and getting 
a 4-year degree, when we have all of these kids who are 
graduating with crushing student loans that is ultimately going 
to become the taxpayer problem, right?
    So here is one question: How do we ensure that we get a 
faculty in high school who can actually begin to get these 
young kids interested in these sciences, technologies, AI, 
whatever it is, and how do we address the issue of there being 
a stigma to maybe just going and getting vocational--a 
vocational education that, by the way now, you can end up 
making more money than someone who graduates with a 4-year 
degree?
    So it is just a lot of stream of consciousness. But, 
literally, I was just sitting with my nephew and I thought: 
Thank God he has a job. But there are--how many of his 
classmates don't and they have got these crushing student 
loans.
    So anyone who has any thoughts on that?
    Ms. Estwick. Congresswoman, thank you for those questions. 
I really would like to jump in and say this, because I feel 
passionately just like you about our educators.
    Educators are our force multipliers, right? What we are 
doing is, I feel like we are teaching our students, like, who 
are digitally natives, right--digital natives, and they are 
surpassing the teachers. We have communities where--you may not 
know this, but the teachers share a--a lot of the educators 
shares this--you know, students are going in and changing their 
grades, because they know how to hack the systems and they know 
how to compromise weaknesses, right, in the network.
    So they already have that capacity and that intellectual 
curiosity, where our educators are sitting there trying to keep 
up. So I think programs that are focused around trying to help 
our educators so they can feel empowered to then be a force 
multiplier and explain cybersecurity jobs, not in the form of 
the cool stuff they see in Hollywood and hacking, right, but 
also things to protect our National security, right?
    Miss Rice. What is the biggest obstacle to getting that 
work force that is ahead of young kids that, you know, as you 
say, are better than any of us?
    Ms. Estwick. Absolutely, absolutely. So I think there are 
programs--and I can't stress this enough, because GenCyber is 
such a major program that I don't think it gets funded enough, 
to tell you the truth. This is a National program that has been 
around for about 5 or 6 years, and they host camps, 
cybersecurity camps, and they teach the fundamentals. They come 
out of the--the budget comes out of, I believe, National 
Security Agency, National Science Foundation.
    But what it is, is that about 130 camps were awarded this 
year. The camps are there--they have teacher camps, student 
camps, and a combination sometimes of teachers and students. So 
you have kind-of train-the-trainer effect.
    So last year when we hosted--Excelsior College, we hosted 
and was awarded a grant to host a middle and high school 
cybersecurity camp. We provided them with tools, many 
computers--we called them raspberry pies. We taught them 
lessons. So now they are taking that--and our teachers were 
diverse. They weren't just, you know, our comp sci or our 
biology or our STEM teachers. We have librarians, because they 
are now the house--they are the custodians of the technology, 
sometimes in the high schools and the schools.
    So we have librarians, we have our technical teachers who 
do the vocational training, and we had various disciplines in 
the camp, about 30 educators in there. Just teaching them and 
providing them with the curricula so they are able to, again, 
then train their teachers and then that kind-of replicates 
throughout the system. But naturally, these programs need to be 
supported to expand.
    Miss Rice. Uh-huh.
    Mr. Gallot. I would like to add, we have, at Grambling, 
several summer programs. We have one high-ability program for 
rising juniors. So they come to the campus, essentially are 
college students for the summer program. We could have 10 times 
of number of students that we have, if we had the resources to 
fund that program.
    We also have computer camps. We have STEM camps. We are 
joining a partnership with Dr. Calvin Mackie from New Orleans, 
which is STEM NOLA, where we are making it STEM Grambling.
    There are a lot of--we have the ability to do a lot more if 
we had resources. I would say that, you know, what Mr. Walker 
and Senator Scott are doing every year with HBCU Fly in, it 
gives HBCU presidents a platform to interact with agency heads, 
with--with industry at the request of Members of Congress.
    So using your platform to connect us with the resources, 
both at your respective agencies that you oversee, as well as 
the businesses that are always looking to have a relationship 
with you to put them in the room with us.
    So, I thank Mr. Walker and Senator Scott for what they have 
done for the past 3 years in giving us a forum to develop these 
relationships. We see greater capacity, but we could do even 
more if we had greater resources.
    Miss Rice. Well, it is clear that all of us are aware in 
this room that we are all in this together, and I think we just 
need to kind-of get in the same room and figure out how we do 
this.
    So thank you all.
    I yield back. Thank you, Mr. Chairman.
    Mr. Richmond. I thank the gentlewoman from New York.
    I now recognize the gentleman from North Carolina, Mr. 
Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, President 
Gallot, for those kind words. It was great to see you again 
this past February. Of course, I won't talk any North Carolina 
A&T shade, although obviously I get to represent the great 
university. As you know, my wife went to Winston-Salem State 
University, so that whole Aggie Pride Ram. I can tell Mr. 
Morehouse is over there looking down at me already. But we will 
leave that alone for today.
    But I do appreciate your commitment in helping these young 
students to exceed in all aspects of life.
    I read through a little bit of your testimony. It is 
apparent that Grambling State is becoming a leader--already a 
leader, and even expanding that in cybersecurity education 
efforts.
    Can you describe how Grambling State began its partnership 
with the IT companies?
    Mr. Gallot. Graduating qualified members of the work force. 
I think, you know, showing that we are graduating not only 40 
percent of the African-American graduates in the State of 
Louisiana in computer science and CIS, but those who can 
actually come in on Day 1 and make a difference. Even with our 
interns--and I highlighted earlier, one of our students who did 
an internship at an electrical utility who came in, and his 
supervisors complimented him on being prepared to come in and 
do meaningful work as an intern, as opposed to just, you know, 
fetching coffee or doing something menial.
    So, I think the quality of our graduates is what has opened 
the doors to many of the relationships that we currently have.
    Mr. Walker. I don't want to be too technical. If it is, 
take a pass on this. But I would like to kind-of dig a little 
deeper. Can you describe the difference between a cybersecurity 
course versus a computer science course?
    Mr. Gallot. I defer. I could--I could read the curriculum. 
Of course, there are foundations of cybersecurity.
    Mr. Walker. Sure.
    Mr. Gallot. There is the technical aspect of it of the what 
to do, but there is also the why. So there is the ethics around 
it all----
    Mr. Walker. Exactly.
    Mr. Gallot [continuing]. Of course. So that is a part--it 
is a holistic approach that we are taking with our new program. 
But I would certainly defer to----
    Mr. Walker. Well, and I would have to as well. I get to 
read the questions sometimes with the good staff work, just to 
be honest with you here, on some of the dig the thing out, if I 
can be honest with you here for a second.
    Let me do a follow-up. Maybe this helps. A 2016 study 
showed that only 1 of the top 36 computer science programs 
required any cybersecurity course to graduate.
    Do you think that more schools--and I will open this up--I 
won't pick on President Gallot--do you think that more schools 
should include cybersecurity components in these computer 
science programs?
    Mr. Simpson. So I will jump in here real quick. So I 
actually think it should be part of--it should go further 
beyond computer science. I think it should be part of Common 
Core.
    When we look at cybersecurity, this is an epidemic issue 
that we are going through globally. If we don't start getting 
out the education awareness and building this into our school 
systems, it is just going to continue to grow.
    Typically, we just go after the STEM candidates, the 
science, the technology, as well as engineering and math. We 
need to go broader than that. We need to really get into the 
STEM--STEAM, which brings in the arts.
    Cybersecurity should be part of, at least, a course in all 
degrees, because when we look at how we are going to solve 
this, especially in the workplace, it is not just the 
cybersecurity team; it is everybody. It is all of the employees 
need to know what their hand is in this and how they are going 
to be able to help.
    Mr. Walker. Ms. Worley, go ahead.
    Ms. Worley. May I?
    Mr. Walker. Yes, of course.
    Ms. Worley. Thank you, Congressman.
    So I think it absolutely has to be part of the core 
curriculum--I agree with Mr. Simpson--in that as we contemplate 
the internet of things and the continued digitization of 
everything that we live with in our world today, enabling 
students who are going to be designing--whether that is 
designing software or designing hardware, et cetera, to be 
designing with security in mind from the beginning, from 
architecture and development, is absolutely critical to the 
security of everything that we use at home, in our companies, 
and in Government.
    Enabling them with the basic tenets of cybersecurity, 
whether they are going to be software coder or a hardware 
developer or a cybersecurity expert is absolutely fundamental 
to ensuring kind-of a secure digital ecosystem as we move 
forward.
    Mr. Walker. I am glad to hear that.
    As Ranking Member on counterintelligence and terrorism on 
this specific subcommittee on Homeland Security, I can tell 
you, the Chinese try to hit us 20,000 times a day, Russia as 
well. We need strong young people that are coming into this 
environment that can speak this language, for lack of better 
expression there. I think that is crucial.
    One survey found that only 37 percent of students said that 
a teacher discussed with them cybersecurity as a career option, 
with a contributing factor possibly being the lack of skilled 
teachers.
    How do you change that factor? Because you can only educate 
for people that you have to--from the educators down to the 
students.
    Somebody want to address that? My time is expiring with 
that question.
    Dr. Estwick, you want to take a look at that?
    Ms. Estwick. Right. So thank you for that question, 
Congressman.
    So you are talking about, as far as how do we get 
cybersecurity and computer science in conjunction and also, how 
do we get teachers? I think--educators, right?
    So I think the thing is that there is work that is being 
done. Looking at the Common Core standards--we talk about this 
all the time, about the standardization, right, and looking at 
how we are already infusing computer science into the 
curricula, as well as synergies between that and, you know, 
infusing the cybersecurity components.
    But I have to tell you, sir, without question, we are 
playing catch-up, right? So we have educators who are trying to 
wrap their heads around the standards as it is, and then we 
have a hodgepodge of standards, as you know, Nationally, right? 
So some States are a little bit more mature than others.
    When you look at the standards--I am going to reach out 
there and say, like, New York--because our school is based in 
New York, so I know a little bit about their standards, and I 
am on the K-12 subgroup through NIST, actually, that is trying 
to synergize between computer science and cybersecurity. You 
will see that there is a lot of commonality. But you will also 
see that those tenets that we talked about that is part of 
cybersecurity, educators need to be educated on that as well. 
So it is not just a curricula for the students. It is also a 
curricula for the educators who are trying to be the force 
multipliers in the classroom.
    Mr. Walker. Thank you.
    Mr. Chairman, I yield back.
    Mr. Richmond. The gentleman from North Carolina yields 
back.
    I will recognize myself for a round of questions.
    Let me go back and just start kind of at the basic. I will 
start with you, Dr. Estwick.
    Based on your experience in the Army, National Security 
Agency, now academia, how important is it for Federal agencies, 
National security agencies, intelligence agencies with those 
missions, like DHS, FBI, DOD, to have a diverse cyber work 
force?
    So, I guess the ultimate question is, do you think that 
having a lack of a diverse work force actually creates inherent 
blind spots in our security?
    Ms. Estwick. Well, thank you, Mr. Chairman, for that 
question.
    I feel that, you know, there has been--already studies out 
that--the importance of diversity in the work force. 
Especially, I would feel in the cybersecurity and in the 
National security framework, diverse perspectives are 
important.
    For my experience, I feel that there is certain ways--
experiences I bring to the table that other people just don't 
have. Having a multitude of people around you with all of those 
different perspectives will--we are able to see different areas 
of a problem.
    I think for me working 10 years in cyber operations, there 
were different avenues that I was able to identify ways that 
maybe we, you know, can get ahead of the adversary and not be 
so prone to always be on the defensive side and playing whack-
a-mole, frankly, when we are trying to protect our resources.
    So I think it is important that we--diversity, we know, is 
a business problem, right? We know diversity needs to be 
focused and brought to the table. But I think it is also that 
we talk about diversity a lot in conversations. It is a little 
frustrating for me sometimes, because we talk a lot about it, 
but I don't see it in action, unfortunately.
    What that means is there needs to be some entrenched--there 
is entrenched issues that need to be addressed. Some of that 
could be not just mentoring, but also with sponsorships. So how 
do we bring people through the different grade levels so they 
are able to be a part of problem sets and be a part of the 
overall solutions to how do we address diversity and, again, 
protect our National security.
    Mr. Richmond. Thank you.
    Let me ask Mr. Gallot. We have talked about the CyberCorps 
Scholarship for Service, which it appears that everybody up 
here supports.
    I would assume, Ms. Worley, you would tell me that if we 
doubled it, you think everybody would use the money and 
continue to create more of a pipeline. But besides the 
CyberCorps Scholarship for Service, what about programs like 
DHS or NSA Centers for Academic Excellence, how can they better 
partner with you? How can--what else should we be asking them 
to do to help create that diverse pipeline, maybe partnering 
with HBCUs or other minority-serving institutions?
    Mr. Gallot. Well, I think part of the solution is providing 
additional support resources. I am not just talking about 
writing a check. But when you think about our shop, for 
instance, our sponsored program director, Dr. Walton, is also 
serving as our provost. So her ability and time to--although 
she has increased our research grants by 254 percent in the 
last 2 years, there is so much more that could be done if there 
were more of--more workers in her shop to help us connect with 
those resources.
    So having an agency like--like DHS to provide a resource 
person to connect us with that--with those opportunities, I 
think, is something tangible that would assist us. Again, it is 
not about just writing a check; it is about giving us some help 
to build our capacity to compete for these opportunities.
    Mr. Richmond. Well, I am glad you brought up the professor. 
I think about people like Calvin Mackie, STEM NOLA, and you all 
partnering.
    The question is, how long will we keep them in the public 
service sector before the corporations who need people, who 
have deeper pockets, come along?
    So, I mean, how hard is it to retain department chairs and 
professors? Because if you are talking about a 489,000-person 
shortage in the country, at some point they are going to start 
picking off our professors to start working in the high-paying 
jobs. Then all of a sudden, who is training the next 
generation? So do you see a problem with retaining and 
recruitment?
    Dr. Estwick, you also.
    But do you-all see a problem in the future of retaining the 
talent that is teaching the next generation of cybersecurity 
talent, and how can we help you all keep them in academia as 
opposed to going off into the private sector by Ms. Worley and 
making a whole lot of money?
    Mr. Gallot. Mr. Chairman, I think if you all as Congress 
can incentivize the private sector to better partner with us, I 
think would certainly be a good start. They certainly want to 
know how they can continue to do business with you. If their 
contracting documents require a certain level of partnership 
with academia, I think that incentivizes them to be a better 
partner with us, because you are requiring them to do it as a 
part of doing business with you. Does that make sense?
    Mr. Richmond. I understand what you are saying.
    Dr. Estwick.
    Ms. Estwick. Yes. I can also--thank you, Chairman, for the 
question.
    I can also add that I think in the Executive Order, they 
spoke about rotational assignments. I think it is important to 
have kind-of that cross-pollination, right? So you have folks--
and, again, it incentivizes the program. But being able to have 
private industry go into Government, Government go into private 
industry, academia, and just have this continuous cross-
pollination of information, of experiences, of expertise, I 
think would be important, too.
    So when we talk about this in the framework of the 
Executive Order and the rotational assignments, I would like to 
see that really expanded to include not just the Government, 
but also with private industry and the academic communities as 
well.
    Mr. Richmond. I see that my time has expired. So I will 
yield back.
    Before I close the hearing, I will recognize Mr. Katko for 
additional time.
    Mr. Katko. There is no question. I just want to make a 
brief observation, based on all of the excellent questions and 
input from the panel today. That is my experience with a 
program called P-Tech in high schools. I am not sure many of 
you have heard of it, but what it does, it has kind-of come out 
of an outgrowth of a need in the STEM fields, electrical 
engineering and all of those types of things. But also in some 
of the rural areas, it is a way of getting people into the 
building trades.
    What they do is they marry up the industry with the kids in 
high school in an earlier level, 8th, 9th grade, and they get 
them in the college-type--college-level courses, but also give 
them practical experience. They are being taught oftentimes, at 
least at a guest lecture, and sometimes in the classroom 
setting, by members from the industry.
    So, by the time they get out of high school, they have a 
lot of college credits, they have a career goal, and they know 
what they are doing. Oftentimes these are first-generation kids 
going to college. It is working everywhere it goes.
    So all of the talent in the industry--you want to talk, Mr. 
Gallot, about bridging the gap, right, and having Government 
help augment things. Industry can augment Government by getting 
their people out into the field and reaching to these kids at 
these early levels in a P-Tech type program. You could do that 
all over the country, and I think would have a huge effect as 
well. Then you couple that up with the scholarships--and us 
plussing-up the scholarships, you might really start having a 
force multiplier that we haven't seen before.
    But getting industry not just looking for talent, getting 
them out into the field to help cultivate that talent would be 
a very big thing.
    With that, Mr. Chairman, I yield back.
    Mr. Richmond. I ask unanimous concept to submit a statement 
for the record from New America.
    Hearing no objections, so ordered.
    [The information follows:]
          Statement of Laura Bate, Policy Analyst, New America
                              May 21, 2019
    Chairman Richmond, Ranking Member Katko, Members of the 
subcommittee, thank you for the opportunity to provide written 
testimony for today's hearing on ``Growing and Diversifying the Cyber 
Talent Pipeline.'' The Members of this subcommittee undoubtedly 
understand the critical importance of effective cybersecurity. 
Protecting data and information systems throughout the Federal 
Government and military is fundamental to protecting National security, 
but our considerations must extend beyond that.
    The Nation's economic health is a building block of National 
security. The United States is currently losing between $57 and $109 
billion dollars a year to cybersecurity failures.\1\ Fostering an 
environment in which major corporations, small and medium enterprise, 
and individuals can curtail these losses and secure their own digital 
assets is integral to providing homeland security. This undertaking is 
only possible if the United States can cultivate a strong, skilled 
cybersecurity workforce, not just within the Federal Government, but 
throughout the whole of the economy.
---------------------------------------------------------------------------
    \1\ Council of Economic Advisors. The Costs of Malicious 
Cybersecurity Activity to the US Economy. Executive Office of the 
President of the United States, 2018. https://www.whitehouse.gov/wp-
content/uploads/2018/03/The-Cost-of-Malicious-Cyber-Activity-to-the-
U.S._Economy.pdf. (Accessed May 2019).
---------------------------------------------------------------------------
    I work with partners in higher education, private industry, and 
public service to improve our understanding of the dynamics that shape 
the cybersecurity workforce. As a policy analyst with the Cybersecurity 
Initiative at the think tank New America, my research encompasses both 
how we expand that workforce and how we strengthen it through diverse 
perspectives and educational pathways that evolve to meet the 
challenges of cybersecurity's changing landscape.
    I have been encouraged to see both Congress and the administration 
redouble efforts to fill cybersecurity jobs in recent weeks. The 
introduction of new proposed legislation from both Chambers of Congress 
and on both sides of the aisle is an important step, as is the 
President's Executive Order on America's Cybersecurity Workforce. As 
commendable as these steps are, however, they are only a part of a very 
long path to filling the empty chairs in the U.S. cybersecurity 
community. I will focus on three particular aspects of this challenge: 
(1) The critical need for building a more diverse workforce, (2) 
incentivizing the development of apprenticeships and other new pathways 
into cybersecurity jobs, and (3) improving our understanding of the 
workforce through empirics.
          diversity is a feature of strong cybersecurity teams
    Diversity is critically important in the cybersecurity workforce 
for three reasons:
    1. Inadvertently limiting diversity artificially narrows hiring 
        pipelines. We cannot afford to overlook entire demographics 
        when we consider the pool of available talent. The United 
        States needs to fill more than 300,000 cybersecurity jobs. 
        There are an estimated 715,715 workers currently employed in 
        cybersecurity jobs,\2\ which means that the industry must grow 
        by more than 40 percent just to meet current needs, let alone 
        future requirements. Given the scale of the demand and the 
        importance of these jobs, the country is best served by 
        prioritizing the identification and removal of the barriers 
        that discourage diversity in the cybersecurity industry.
---------------------------------------------------------------------------
    \2\ Cybersecurity Supply/Demand Heat Map. CyberSeek. https://
www.cyberseek.org/heatmap.html. (Accessed May 2019).
---------------------------------------------------------------------------
    2. Diversity makes teams stronger. Research indicates that diverse 
        teams focus more on facts, process those facts more carefully, 
        and are more innovative.\3\ Because we are discussing the teams 
        that will protect Americans' lives and livelihoods, we cannot 
        afford to field anything less than the best teams possible.
---------------------------------------------------------------------------
    \3\ Rock, David and Heidi Grant. Why Diverse Teams are Smarter. 
Harvard Business Review, November 4, 2016. https://hbr.org/2016/11/why-
diverse-teams-are-smarter. (Accessed May 2019).
---------------------------------------------------------------------------
    3. Cybersecurity jobs pay well. Ensuring that these economic 
        opportunities are equally accessible to all members of our 
        communities is simply the right thing to do.
    Increasing diversity, equity, and inclusion within the workforce is 
not an easy task. Successful efforts require more than a policy or law; 
they require significant structural and cultural changes throughout the 
entire education and training ecosystem. Such widespread change takes 
time and deliberate effort. To support this goal, policy makers must 
make workforce diversity an integral and explicit feature of future 
cybersecurity workforce development programs.
    When diversity is not an explicit consideration in the creation of 
new programs, innovations that might otherwise be beneficial run the 
risk of unintentionally decreasing diversity. For example, consider 
Section 2(c) of the recent Executive Order on America's Cybersecurity 
Workforce, which directs administration leadership to identify and 
implement aptitude assessments that can be deployed across the non-
cybersecurity Federal workforce to identify employees who are promising 
candidates for cybersecurity training.
    It is unclear how aptitude would be defined in these tests, but an 
easy mistake would be to seek out individuals that display 
characteristics that reflect those of individuals that currently 
succeed in cybersecurity roles. Such a test could quite possibly 
identify candidates with backgrounds and experiences similar to the 
current workforce, thus reinforcing the industry's current 
demographics. These tests could be very beneficial in rapidly expanding 
the Federal cybersecurity workforce, but if they are not implemented 
with very careful attention to the impact on diversity, they could do 
more harm than good.
    It is not enough to expect diversity to grow as a byproduct of 
workforce development programs. Diversity must be an explicit and 
integral feature of the future cybersecurity workforce.
                   innovation responds to incentives
    Growth in the cybersecurity workforce is hampered by limited 
opportunities for potential employees to enter the field and gain 
experience. The most commonly requested professional certification,\4\ 
the CISSP, is not granted in full until candidates can demonstrate 5 
years of relevant work experience.\5\ Notably, in the United States 
there are currently more job postings seeking candidates with this 
certification than there are certification holders throughout the whole 
of the economy.\6\ The large majority of open cybersecurity jobs 
require several years' experience in the field and a minimum of a 
bachelor's degree.\7\ \8\ The cumulative effect of these requirements 
for degrees, certifications, and experience is that it can be quite 
difficult to find that first job in cybersecurity, especially for job 
seekers without a degree in computer science or a related field.
---------------------------------------------------------------------------
    \4\ Cybersecurity Supply/Demand Heat Map. CyberSeek.
    \5\ CISSP--The World's Premier Cybersecurity Certification. 
(ISC)\2\. https://www.isc2.org/Certifications/CISSP. (Accessed May 
2019).
    \6\ Cybersecurity Supply/Demand Heat Map. CyberSeek.
    \7\ Job Market Intelligence: Cybersecurity Jobs, 2015. Burning 
Glass, 2015. https://www.burning-glass.com/research-project/
cybersecurity/. (Accessed May 2019).
    \8\ Cybersecurity Supply/Demand Heat Map. CyberSeek.
---------------------------------------------------------------------------
    Extrapolating from the data available, an estimated 88,000 students 
graduate from computer and information science programs in the United 
States in an academic year,\9\ and presumably only a small portion of 
these graduates will choose to go into careers in cybersecurity. Other 
disciplines like engineering and mathematics also contribute future 
cybersecurity employees, but nonetheless, it quickly becomes clear that 
we cannot fill the hundreds of thousands of open jobs with the tens of 
thousands of available candidates graduating each year.
---------------------------------------------------------------------------
    \9\ The latest official data available is from 2015-2016, in which 
64,405 students graduated. Extrapolating from percentage change between 
years between 2010-2011 to 2015-2016 (49.5 percent, or 8.25 percent per 
year on average), we might expect some 88,436 students to graduate from 
computer and information science programs during academic year 2018-
2019. See: Table 325.35. Degrees in computer and information sciences 
conferred by postsecondary institutions, by level of degree and sex of 
student: 1970-71 through 2015-16. The National Center for Education 
Statistics, November 2017, https://nces.ed.gov/programs/digest/d17/
tables/dt17_325.35.asp?current=yes.
---------------------------------------------------------------------------
    Filling cybersecurity jobs at scale means that the cybersecurity 
community must build new ways to bring in employees and build 
experience. Some large employers and a very few small businesses have 
developed innovative solutions to provide ``on-ramps'' for 
inexperienced employees, but enabling such programs to propagate 
throughout the economy will require incentives.
    Apprenticeship programs offer a particularly promising opportunity 
to create entry points into cybersecurity jobs. These work-based 
learning programs provide a way of connecting with more candidates--and 
particularly those candidates that might otherwise be overlooked by 
hiring programs that rely on conventional degrees as a filter. 
Moreover, they provide a means of responding to employers who 
consistently indicate that they are not finding the skills they need 
among job applicants.\10\ By actually teaching skills in the workplace, 
employers are integral to shaping their future workforce.
---------------------------------------------------------------------------
    \10\ State of Cybersecurity 2019: Current Trends in Workforce 
Development. ISACA, 2019. http://www.isaca.org/cyber/Documents/State-
of-cybersecurity_res_eng_0316.pdf. (Accessed May 2019).
---------------------------------------------------------------------------
    With careful implementation, workers, employers, and educators all 
stand to benefit from more widespread adoption of cybersecurity 
apprenticeships.\11\ Simply spreading the model, however, is not 
enough; quality matters in apprenticeship programs. In order for the 
cybersecurity community to benefit from apprenticeship programs in a 
sustainable way, measures to expand apprenticeships should support 
programs that ensure four basic features, drawn from the Apprenticeship 
Forward Collaborative:
---------------------------------------------------------------------------
    \11\ Prebil, Michael. Teach Cybersecurity with Apprenticeship 
Instead. New America, April 14, 2017. https://www.newamerica.org/
education-policy/edcentral/teach-cyber-apprenticeship-instead/. 
(Accessed May 2019).

``Paid, structured, productive on-the-job training combined with 
related classroom instruction; clearly defined wage structure with 
increases commensurate with skill gains or credential attainment; high 
quality third-party evaluation of program content, apprenticeship 
structure, mentorship components, and standards to meet business demand 
and worker need; and on-going assessment of skills development 
culminating in an industry-recognized credential and full-time 
employment.''\12\
---------------------------------------------------------------------------
    \12\ Definition and Principles for Expanding Quality Apprenticeship 
in the U.S. Apprenticeship Forward Collaborative. https://
www.nationalskillscoalition.org/resources/publications/file/Definition-
and-Principles-for-Expanding-Quality-Apprenticeship-in-the-U.S..pdf. 
(Accessed May 2019.)

    These characteristics are particularly important in evaluating 
opportunities to invest in the development of the cybersecurity 
workforce. Not every program that calls itself an apprenticeship leads 
to the same benefits. Programs that do not ensure a high level of 
quality can lead to negative outcomes for the students and the larger 
cybersecurity ecosystem. Moreover, such programs would divert 
resources, interest, and credibility from programs that do deliver 
high-quality learning opportunities.
    Responsible support for apprenticeship programs in cybersecurity 
must also account for local industry requirements. As discussed in New 
America's prior work, cybersecurity jobs are extremely 
heterogeneous,\13\ and not all cybersecurity work roles are equally in 
demand in all regions. In order to make best use of resources, 
policies, and legislation to support the expansion of cybersecurity 
apprenticeships should require rigorous analysis of local job markets 
to ensure alignment between learners and the specific cybersecurity 
work roles that are in demand.
---------------------------------------------------------------------------
    \13\ Bate, Laura. Cybersecurity Worlforce Development: A Primer. 
New America, November 1, 2018. https://www.newamerica.org/
cybersecurity-initiative/reports/cybersecurity-workforce-development/. 
(Accessed May 2019).
---------------------------------------------------------------------------
    Incentives to spark the development of alternative pathways into 
cybersecurity can take many forms. Such incentive programs could focus 
on supporting students, for example, through tuition waivers for those 
pursuing a designated cybersecurity training path.\14\ Alternatively, 
funding could come through competitive grants focused on program 
development or through reimbursement systems. Tax credits to businesses 
that utilize emerging systems like cybersecurity apprenticeships, akin 
to the tax credits proposed in the LEAP Act, could also spur the 
development of new programs.
---------------------------------------------------------------------------
    \14\ There is precedent for such tuition waivers and other systems 
to support the instructional costs of apprenticeship at the State 
level, such as in Texas, California, and North Carolina. See https://
evolllution.com/revenue-streams/workforce_development/got-you-covered-
how-states-can-support-the-costs-of-apprentice-instruction/.
---------------------------------------------------------------------------
    Not all incentives need to come in the way of direct funding. 
Government can lead by example by implementing innovative models in 
their own workplaces. Similarly, setting contracting requirements for 
information technology and cybersecurity services that encourage the 
promotion of new systems can also be a powerful incentive for the 
private sector. This is especially true in cybersecurity, where the 
Federal Government comprises a particularly large part of the market.
    There are many emerging options for increasing the pathways into 
cybersecurity jobs. Providing incentives to implement these programs 
widely and continue efforts to innovate further will be key to 
maximizing the benefit of such programs.
                          good data is scarce
    As different pathways into cybersecurity begin to emerge, 
establishing mechanisms to evaluate these options will become an 
important means for allocating resources and improving systems. Right 
now, the cybersecurity community has very little data on which to base 
its understanding of the current workforce. A few resources--most 
notably CyberSeek, a joint project between the National Initiative for 
Cybersecurity Education, Burning Glass, and Comp TIA--provide an 
understanding of the needs outlined in cybersecurity job postings. 
However, data on the current workforce is extremely limited.
    For example, it is difficult to know which pathways brought current 
cybersecurity workers to their present positions. Anecdotal evidence 
would suggest the military, intelligence community, self-taught 
instruction, and conventional 4-year degrees are all major 
contributors, but we have very little means to judge those in relation 
to one another or to identify other major pathways. Similarly, we have 
very little longitudinal data from employees in cybersecurity fields to 
identify which pathways lead to best outcomes for learners over the 
course of their career.
    Requiring that properly-anonymized data collection mechanisms be 
made a part of Government-supported efforts would provide an 
opportunity to mitigate the current lack of data and would provide a 
basis on which to evaluate and constantly refine new programs and 
pathways in cybersecurity education and training. Funding for programs 
designed to incentivize the development of innovative workforce 
solutions should include specific requirements for the on-going 
analysis of program effectiveness and learner outcomes in order to 
enable future evidence-based policy making.
    Cybersecurity workforce development is receiving an unprecedented 
amount of attention from the highest levels of Government and industry, 
and yet we still cannot authoritatively and consistently answer even 
very basic questions about the current workforce: What percent of the 
U.S. cybersecurity workforce is female? How many cybersecurity 
professionals does the U.S. Government employ? What makes a 
cybersecurity employee--in any role--effective? When these questions 
are answered at all, the answers vary significantly depending on whom 
you ask, and the field is rife with studies with inconsistent 
methodologies and unacceptably small and biased samples.
    The lack of credible foundational research in cybersecurity 
workforce development becomes particularly pernicious when we look 
toward the future. Current research and rhetoric tends to extrapolate 
future workforce demand based largely on the growth from the prior 
year. While it may be intuitive, this approach is overly simplistic and 
fails to take into account major trends that will shape the future of 
the cybersecurity industry. Most notably, the increasing reliance on 
machine learning tools is likely to reduce workforce requirements in 
some roles while increasing demand for experts in artificial 
intelligence, roles that often require postgraduate degrees. In order 
to responsibly invest in the future of the cybersecurity workforce, we 
must also invest in understanding what that future looks like.
    Grants and funding opportunities to develop specific models and 
types of programs for cybersecurity workforce education and training 
already exist within the Department of Homeland Security, the National 
Science Foundation, and other agencies. While these opportunities are 
critically important to driving innovation, they do not necessarily 
further our fundamental understanding of the workforce. Providing these 
agencies with an opportunity to fund foundational research would make 
significant strides in improving the current models and informing 
future investment priorities. What is more, such research would have a 
profound impact well beyond Government hiring and spending. Making this 
information available to the public would enable the whole of the 
economy to better understand and strengthen their cybersecurity 
workforce.
    We cannot keep guessing when it comes to the cybersecurity 
workforce. Funding foundational research to answer these questions must 
be a priority.
    Thank you for the opportunity to provide input. I hope that New 
America and I can continue to be a resource to the subcommittee on this 
issue.

    Mr. Richmond. We are trying to give one of our colleagues a 
moment to get here, and I think that she would add valuable 
insight into the conversation.
    But let me just also add that we really need to find better 
ways to fund, especially our CyberCorps scholarship program. 
The fact that I believe every year in the budget, it is 
identified as something that would and should be cut. I am sure 
that it is very hard to--to have a strategic plan if you don't 
know if that funding is going to be there on a yearly basis. 
Maybe we ought to look at some long-term funding for it or 
making sure that we know it is there so that you can plan 
accordingly.
    Now, Mr. Gallot, I guess when I was coming up in high 
school, we had Upward Bound and all of those programs where 
kids could go to college and get introduced to biology and all 
of those pre-med--not that I got into any of the Upward Bound 
programs, but I certainly knew that they were there.
    So is that what you-all are doing in terms of cyber and 
computer information systems? At what grade do you start?
    Mr. Gallot. So those--we don't have TRIO or Upward Bound. 
Southern University, of course, in Baton Rouge has that. Ours 
are self-supported programs. Our high-ability program, again, 
for rising juniors who are able to come and earn college credit 
on a college campus, as well as our--we have coding camp. We 
have a robotics camp.
    Mr. Richmond. How do you pay for all of that?
    Mr. Gallot. Mainly, we absorb the cost or through some 
grant opportunities. But for the most part, we absorb the cost. 
Because, again, a lot of students we serve lack the resources 
to--to pay for that. Of course, with our--our partnership with 
Dr. Mackie and STEM Grambling, that is going to provide us 
additional opportunities. Entergy, for instance, has been a 
great partner of his program, and so, we look to utilize those 
as well.
    But again, we have the ability and the know-how to do it. 
It is just simply a matter of having expanded resources to 
expand our capacity to reach these kids who are really very 
hungry, and they are like sponges. I mean, they soak it up 
very, very quickly. You just have to give them an environment 
to do it.
    I think about my 6- and 7-year-olds who are using iPads in 
Kindergarten and 1st grade. So these kids growing up now are, 
you know, way more technologically advanced than we ever were, 
and they pick up on this stuff.
    Again, we just need more capacity and resources, and we can 
certainly do a better----
    Mr. Richmond. Now, are there any Government programs or 
grants out there for the universities to help you augment or 
offset those costs for those programs? Or is that something you 
would like to see us look at creating?
    Mr. Gallot. We would certainly welcome the opportunity.
    Mr. Richmond. OK. With that, I want to thank the witnesses 
for their valuable testimony and the Members for their 
questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    Thank you.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Honorable Lauren Underwood for Amelia Estwick
    Question 1a. Right now, there are 300,000 unfilled cybersecurity 
jobs in this country. For the sake of our National security and our 
international competitiveness, that needs to change.
    Fermi National Lab, in my District, is working to make that change 
by bolstering the cybersecurity pipeline for veterans through their 
innovative VetTech internship program. These paid internships provide 
training in computing, software development, and electrical 
engineering, providing the skills needed to enter the cyber workforce. 
This past year, the VetTech program received more than 50 applications 
for 12 openings.
    As a veteran yourself, can you tell us more about why targeted, 
Federally-supported programs like VetTech are so important for widening 
the cyber workforce pipeline?
    Answer. Programs such as the Fermi National Lab VetTech's 
internship program are so important for widening the cyber workforce 
pipeline because this program and other internship programs tap into a 
resource of highly-skilled individuals who may already possess some of 
the technical competencies to work in the cyber workforce, to include, 
critical analysis and engineering, as well as soft skills such as 
leadership, communications, and business acumen. Internships (both 
virtual and in-person) provide opportunities for veterans to work 
within the contexts of corporate culture which oftentimes is different 
from their military work culture. As part of these programs, they 
acquire first-hand experiences with the cyber issues facing business, 
Government, and nonprofits. This is particularly important for 
individuals looking to change their career to take advantage of 
opportunities in cybersecurity. At Excelsior College, our student 
demographic is 30 percent military/veteran and we have worked on 
developing an option for students to complete an internship for credit. 
By participating in internships, students gain practical work 
experience that they can use to demonstrate their skills and potential 
to future employers. For employers hosting interns, there is a 
potential to increase capacity in the short term and build talent 
pipelines in the long term.
    Question 1b. In addition, your statement, ``the VetTech program 
received more than 50 applications for 12 openings'', speaks to the 
need and desire of veteran programs such as VetTech that cater and 
support their career transition.
    What are best practices that institutions of higher education and 
technical education programs can implement to attract more veteran 
applicants?
    Answer. Some of the best practices higher education institutions 
and technical education programs can implement to attract more veteran 
applicants are to provide as many opportunities to aid veterans in 
their career pathways. For higher education, this means support for 
veterans in acquiring their academic credentials by offering flexible 
options for them to use their GI Bills (to include the original GI Bill 
of 1944 and Post-9/11 Veterans Educational Assistance Act of 2008), 
landmark pieces of legislation that have helped millions of veterans 
pay for post-secondary education. Providing flexible options which 
include virtual and in-person, would benefit the veteran especially if 
they are currently working and need the academic credential or 
vocational training to advance in their career path.
    In addition, according to the Association of American Colleges and 
Universities, it's imperative to have effective programmatic elements 
to meet veterans' unique needs, which may include collaboration with 
other community support services to ensure successful transition and 
matriculation throughout college. For example, Excelsior College 
established the Center for Military and Veteran Education (CME), which 
offers supportive services to service members and veterans, such as:

``Provide specific points-of-contact to aid in higher education 
governance. For many veterans, higher education can be a culture shock 
in understanding the institutional governance; therefore, the CME 
provides specific points-of-contact for all services (e.g. registrar, 
academic advisement, tuition assistance, career services, etc.) to 
alleviate veteran student frustrations.
``Create veteran-specific learning communities. Excelsior College's 
student demographic is 30 percent service member and veteran; 
therefore, creating learning communities that focus on this student 
population (e.g. social media groups, etc.) has benefited many of our 
service members and veterans by enhancing their student experiences and 
fostering a supportive network of peers.''

    Finally, educational programs that emphasize internships, 
apprenticeships, externships, and mentor/protege programs that will 
assist in guiding veteran applicants during their career transition, 
can be used to attract veteran applicants. These experiences help to 
reinforce skills learned and provide veterans with practical 
experiences that can help shape their career pathway.
    Question 1c. What could Congress and the Federal Government do to 
help make veterans more aware of opportunities within the cybersecurity 
field?
    Answer. Initiatives Congress and the Federal Government can 
implement to make veterans more aware of opportunities within the 
cybersecurity field are supporting outreach and workforce development 
programs that reach veterans. Outreach in the form of marketing 
campaigns targeting veterans for cybersecurity jobs, such as social 
media, advertisements on public transportation, radio, as well as 
strategic partnering with the U.S. Department of Veterans Affairs and 
Department of Defense; leverage the existing platforms and services 
currently used by veterans. Also, there should be an emphasis on 
sponsoring National job fairs for veterans as well as collaborating 
with private organizations to incentivize veteran recruitment, and 
continue funding for free cybersecurity training for veterans, such as 
the Federal Virtual Training Environment (FedVTE). Finally, using 
cybersecurity professional organizations such as Women in Cybersecurity 
(WiCyS) and International Consortium of Minority Cybersecurity 
Professionals (ICMCP), that target affinity groups such as veterans and 
other diverse populations, are another great resource to bring 
awareness to veterans about opportunities within the cybersecurity 
field.
    Question 2a. Even with VetTech's success in attracting applicants, 
I've heard from stakeholders in my district that further engagement 
with community colleges and 4-year universities is also necessary for 
cybersecurity training programs to be sustainable.
    Dr. Estwick, what support do colleges and universities need from 
Congress to fill the growing demand in the cybersecurity workforce?
    Answer. Public and Private partnerships are paramount to growing 
the cybersecurity workforce. Cooperation of private industry, academia, 
and Governmental agencies on joint cybersecurity initiatives can take 
advantage of each sector's complementary strengths. For example, in 
2014 the Office of Personnel Management (OPM) created the Federal 
Academic Alliance (FAA) to provide higher-education opportunities to 
the Federal workforce at reduced tuition rates to address the 
Government-wide skills gap needs, including the shortages in 
cybersecurity. Today, OPM endorses 15 colleges and universities, such 
as Excelsior College and support for more educational opportunities 
like the FAA would be beneficial to fulfill the demand in the 
cybersecurity workforce.
    In addition, according to a recent International Information System 
Security Certification Consortium, (ISC)\2\ 2018 study titled, 
``Innovation Through Inclusion: The Multicultural Cybersecurity 
Workforce,'' 26 percent of the U.S. cybersecurity workforce identifies 
as non-Caucasian. One strategy to address the underrepresentation of 
racial and ethnic minorities in the cybersecurity field is to fund 
cybersecurity educational programs at minority-serving institutions 
(MSI). More funding for MSI's to create cybersecurity educational 
curricula that addresses cybersecurity topics (e.g. data breaches, 
threats to internet of things (IoT), artificial intelligence (AI) 
expansion, etc.) would help to educate and sustain the cybersecurity 
workforce while broadening participation within the cybersecurity 
field.
    Finally, the number of cyber attacks targeting our Nation's 
critical infrastructures are on the rise. Specifically, in 2013, 59 
percent of the attacks against our critical infrastructure were 
reported in the energy sector (ICS-CERT, 2013). A skilled and educated 
workforce is an essential component in improving the security posture 
of our critical infrastructure. The security program of the nuclear 
sector is regulated by the Federal Government with governance under the 
U.S Nuclear Regulatory Commission (NRC). In addition to being competent 
in cybersecurity, professionals working in the nuclear and energy 
industries need to be aware of specific standards, requirements, and 
unique cyber threats.
    Excelsior College has a long history of meeting the educational 
needs of the nuclear workforce through innovative educational 
solutions. In 2014, a degree program was created to address 
cybersecurity challenges facing the nuclear industry. Cybersecurity 
professionals in the nuclear sector require a broad range of technical 
skills; however, few college programs currently exist at the 
baccalaureate level to assure that these professionals have the unique 
skill sets and knowledge domains needed to protect facilities and our 
National security. Additionally, the critical and practical nature of 
nuclear and energy sectors calls for enhanced simulation-based learning 
to be developed. Due to Excelsior's innovative program, in June 2018, 
Excelsior College received a Department of Energy Nuclear Energy 
University Programs (DOE-NEUP) grant to purchase a web-based 
pressurized water reactor simulator for use in the nuclear engineering 
technology program. The $250K grant provides funding to:
  <bullet> support plant simulation to enhance student achievement of 
        higher cognitive learning outcomes through ``learning by 
        doing,''
  <bullet> provide the ability to evaluate and analyze technical 
        information during ``dynamic'' situations,
  <bullet> enhance our student's experiential learning activities, and 
        by doing so, enhance the student's ability to meet industry 
        needs,
  <bullet> enable students to advance their understanding of key 
        theories and concepts in the nuclear technology field to better 
        protect against cyber threats.
    The value of Government funding to support the development of these 
lab-based activities means without such support, higher education 
institutions might not be able to adopt this important technology. 
Therefore, there is an increasing need to expand Government funding of 
experiential learning, especially in an on-line environment, where 
skills shortages in cybersecurity can be filled by shifting people from 
one industry/occupation to cybersecurity fields.
    Question 2b. As both a veteran and woman of color, what do you 
believe are the most impactful barriers to entry that need to be 
addressed to attract and retain these underrepresented groups?
    Answer. As a veteran and woman of color, some of the challenges to 
recruitment and retention within the cybersecurity workforce have and 
continue to be: Lack of understanding of military transferable skills, 
discrimination, and inequities with pay and access to career 
opportunities.
    Female veterans need more support in articulating their military 
experiences and identifying transferrable skills important to the 
cybersecurity domain. Since there's no direct mapping of military 
careers to current cybersecurity jobs, the lack of understanding by 
many employers when it comes to hiring veterans gets further 
complicated when the veteran is unable to articulate the importance of 
their military jobs. Therefore, employers need to implement recruitment 
programs with hiring managers who understand the immeasurable value 
female veterans bring to the cybersecurity workforce.
    According to a recent 2017 Global Information Security Workforce 
Study, 51 percent of women in the cybersecurity workforce have 
experienced discrimination. Although this statistic did not 
disaggregate how many were female veterans or women of color, we can 
surmise these female populations face discrimination as well. To 
further support these statistics, the (ISC)\2\ 2018 report referenced 
in an earlier question stated ``32 percent of cybersecurity 
professionals of color report they have experienced some form of 
discrimination in the workplace.'' Awareness programs that address 
diversity, inclusion, and equity are important for organizations to 
recruit and retain veterans and women of color in the cybersecurity 
workforce.
    Finally, from my personal experience, it's important that we 
continue mentorship programs; however, sponsorship programs have 
directly impacted my career advancement. Sponsors take a direct role in 
the advancement of their proteges and usually work within the same 
organization. It was through sponsorship and endorsement of my 
technical competencies by senior leaders that advanced my career from a 
multitude of roles that garnered more responsibility at each level, 
while affording me the opportunities to earn raises and promotions 
along the way. Without sponsorship, my cybersecurity career path would 
have likely stalled in non-managerial roles negatively impacting my pay 
and access to technical leadership programs. Unfortunately, the 
inequity issues with pay and access are not unique; according to the 
(ISC)\2\ 2018 report referenced in an earlier question:

``Despite higher level of education, a cybersecurity professional of 
color earns less and is underrepresented in senior roles . . . tend to 
hold non-managerial positions, and pay discrepancies, especially for 
minority women (whereas women of color make an average of $10K less 
than Caucasian males and $6K less than Caucasian females).''

    In conclusion, there are several barriers impacting veterans and 
women of color in the cybersecurity field; however, based on my 
experiences; the inability to articulate transferrable skills, the lack 
of pay equity and access to career opportunities due to discrimination 
would need to be addressed to recruit and retain veterans and 
especially women of color within the cybersecurity field.

Sources: https://cme.excelsior.edu/, https://fedvte.usalearning.gov/, 
https://www.wicys.org/, https://www.icmcp.org/, https://www.isc2.org/-/
media/Files/Research/Innovation-Through-Inclusion-Report.ashx, https://
www.isc2.org/-/media/B7E003F79E1D4043A0E74A57D5B6F33E.ashx.

                                 <all>
</pre></body></html>
